<html>
<title> - ARE WE READY FOR PRIME TIME? ASSESSING THE STATE OF EMERGENCY READINESS IN THE NATION'S CAPITAL</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]




ARE WE READY FOR PRIME TIME? ASSESSING THE STATE OF EMERGENCY READINESS 
                        IN THE NATION'S CAPITAL

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 10, 2003

                               __________

                           Serial No. 108-18

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                                 ______

87-679              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
DAN BURTON, Indiana                  HENRY A. WAXMAN, California
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
MARK E. SOUDER, Indiana              CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
DOUG OSE, California                 DENNIS J. KUCINICH, Ohio
RON LEWIS, Kentucky                  DANNY K. DAVIS, Illinois
JO ANN DAVIS, Virginia               JOHN F. TIERNEY, Massachusetts
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   DIANE E. WATSON, California
ADAM H. PUTNAM, Florida              STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia          CHRIS VAN HOLLEN, Maryland
JOHN J. DUNCAN, Jr., Tennessee       LINDA T. SANCHEZ, California
JOHN SULLIVAN, Oklahoma              C.A. ``DUTCH'' RUPPERSBERGER, 
NATHAN DEAL, Georgia                     Maryland
CANDICE S. MILLER, Michigan          ELEANOR HOLMES NORTON, District of 
TIM MURPHY, Pennsylvania                 Columbia
MICHAEL R. TURNER, Ohio              JIM COOPER, Tennessee
JOHN R. CARTER, Texas                CHRIS BELL, Texas
WILLIAM J. JANKLOW, South Dakota                 ------
MARSHA BLACKBURN, Tennessee          BERNARD SANDERS, Vermont 
                                         (Independent)

                       Peter Sirh, Staff Director
                 Melissa Wojciak, Deputy Staff Director
              Randy Kaplan, Senior Counsel/Parliamentarian
                       Teresa Austin, Chief Clerk
              Philip M. Schiliro, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 10, 2003...................................     1
Statement of:
    Harp, Van, Director, Washington Field Office, Federal Bureau 
      of Investigation; Teresa Chambers, Chief, U.S. Park Police; 
      and Charles Ramsey, chief, Metropolitan Police Department..    82
    White, Richard, general manager, Washington Metropolitan Area 
      Transit Authority; David Robertson, interim executive 
      director, accompanied by Mary K. Hill, chair, Board of 
      Directors, Metropolitan Washington Council of Governments; 
      and Bob Peck, president, Washington Board of Trade.........   121
    Williams, Anthony A., Mayor, District of Columbia; Mark 
      Warner, Governor, Commonwealth of Virginia; Bruce Tuxill, 
      Adjutant General, accompanied by Edward T. Norris, 
      secretary of State police, State of Maryland; and Michael 
      Byrne, Director, Office of National Capitol Region 
      Coordination, U.S. Department of Homeland Security.........    13
Letters, statements, etc., submitted for the record by:
    Byrne, Michael, Director, Office of National Capitol Region 
      Coordination, U.S. Department of Homeland Security, 
      prepared statement of......................................    65
    Chambers, Teresa, Chief, U.S. Park Police, prepared statement 
      of.........................................................    92
    Clay, Hon. Wm. Lacy, a Representative in Congress from the 
      State of Missouri, prepared statement of...................   198
    Davis, Chairman Tom, a Representative in Congress from the 
      State of Virginia, prepared statement of...................     4
    Harp, Van, Director, Washington Field Office, Federal Bureau 
      of Investigation, prepared statement of....................    85
    Peck, Bob, president, Washington Board of Trade, prepared 
      statement of...............................................   184
    Ramsey, Charles, chief, Metropolitan Police Department, 
      prepared statement of......................................   103
    Robertson, David, interim executive director, and Mary K. 
      Hill, chair, Board of Directors, Metropolitan Washington 
      Council of Governments, prepared statement of..............   154
    Tuxill, Bruce, Adjutant General, prepared statement of.......    55
    Warner, Mark, Governor, Commonwealth of Virginia, prepared 
      statement of...............................................    32
    Waxman, Hon. Henry A., a Representative in Congress from the 
      State of California, prepared statement of.................     7
    White, Richard, general manager, Washington Metropolitan Area 
      Transit Authority, prepared statement of...................   124
    Williams, Anthony A., Mayor, District of Columbia, prepared 
      statement of...............................................    17

 
ARE WE READY FOR PRIME TIME? ASSESSING THE STATE OF EMERGENCY READINESS 
                        IN THE NATION'S CAPITAL

                              ----------                              


                        THURSDAY, APRIL 10, 2003

                          House of Representatives,
                            Committee on Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 11:35 a.m., in 
room 2154, Rayburn House Office Building, Hon. Tom Davis of 
Virginia (chairman of the committee) presiding.
    Present: Representatives Tom Davis, Shays, Jo Ann Davis of 
Virginia, Waxman, Cummings, Kucinich, Clay, Van Hollen, 
Ruppersberger, Cooper and Bell.
    Also present: Representatives Wolf, Hoyer, Moran and Wynn.
    Staff present: Peter Sirh, staff director; Melissa Wojciak, 
deputy staff director; Keith Ausbrook, chief counsel; Ellen 
Brown, legislative director and senior policy counsel; David 
Young, counsel; David Marin, director of communications; Scott 
Kopple, deputy director of communications; Victoria Proctor, 
professional staff member; Teresa Austin, chief clerk; Joshua 
E. Gillespie, deputy clerk; Allyson Blandford, office manager; 
Shalley Kim, legislative assistant; Brien Beattie, staff 
assistant; Phil Schiliro, minority staff director; Phil 
Barnett, minority chief counsel; Kristin Amerling, minority 
deputy chief counsel; David Rapallo, minority counsel; Karen 
Lightfoot, minority communications director/senior policy 
advisor; Earley Green, minority chief clerk; Jean Gosa, 
minority assistant clerk; and Cecelia Morton, minority office 
manager.
    Chairman Tom Davis. Good morning. A quorum being present, 
the Committee on Government Reform will come to order, and I 
want to welcome everybody to today's hearing on emergency 
readiness in the national capital region.
    The national capital region faces some unique challenges in 
its emergency preparation and response planning. It is an area 
governed by two States, the District of Columbia and the 
Federal Government, each with its own police forces and 
emergency plans, but all closely connected by roads, bridges 
and mass transit.
    The District of Columbia is also the seat of government 
that employs close to 370,000 Federal employees, many of whom 
live in nearby Maryland and Virginia, and because of its unique 
status as the Nation's Capital, a multitude of government 
agencies must coordinate their efforts to respond effectively 
to emergencies.
    The Federal, local and State governments have taken a 
number of actions to improve coordination in emergency 
situations, but in recent weeks several incidents in the 
Capital Region have shown that there is much to be done in the 
way of planning, coordination, communication and informing the 
public.
    For example this past month a disgruntled tobacco farmer 
drove a tractor onto the Mall with a permit and threatened to 
detonate explosives and effectively held the area hostage for 
47 hours. This incident seriously disrupted life and work in 
this region when traffic in the Capital's vital areas came to a 
standstill.
    Law enforcement agencies attempted to negotiate with the 
disgruntled farmer, but even as the Nation approached the eve 
of war, and the homeland security risk condition had been 
upgraded to code orange, control strategies were not escalated. 
Law enforcement agencies reported that their priority was to 
preserve the rights of a single man. Meanwhile the Nation's 
Capital was effectively shut down during three morning rush 
hours.
    Thousands of employees found their normal commute times 
exponentially increased. Federal and private sector employees 
were in traffic instead of doing their jobs. Federal and 
private sector employees could not make it home in time to pick 
up children or attend after-work obligations. Even Congress was 
impaired by the incident. Caucuses called off meetings, and 
hearings could not occur because Members who were stuck in 
traffic were not present. This lack of productivity represents 
a significant economic impact, and it is unacceptable.
    If local and Federal officials were not able to handle 
congestion problems created by one man, how will they handle an 
evacuation necessitated by a terrorist attack? When protesters, 
packages or acts of nature cause regional officials to close 
roads, the effects extend far beyond a mild inconvenience to 
commuters.
    Road closures also raise serious concerns about first 
responders' ability to react to other incidents. How can an 
ambulance best respond to calls and transport the sick and 
injured to hospitals when the roads are closed? How can the 
fire department arrive at the scene of a fire in a timely 
manner?
    For all the planning to prepare for emergencies, it seems 
that the numerous agencies and jurisdictions couldn't resolve 
the situation with a disgruntled farmer in a timely manner. We 
plan to examine whether they acted according to the book, and 
if so, whether it is time to revisit and rewrite the book.
    It cannot be said that there is a shortage of plans. The 
problem is making sure that the plans are workable and will 
meet the needs of all those involved. The plans need to be 
tested and coordinated.
    After the events of September 11th, the Federal Government 
invested over $432 million to assist regional jurisdictions to 
prepare to combat terrorism and respond to emergencies in the 
national capital region. I've asked the GAO to examine the 
budget and spending plans for Maryland, Virginia and the 
District of Columbia. This report will help Congress identify 
whether this region is sufficiently funded and is using the 
funds to its fullest capacity.
    We've assembled an impressive group of witnesses to help us 
understand the progress of the national capital region for 
planning and emergency preparedness response. We have three 
panels with us. The first will focus on government planning in 
the Federal, State and District level. The second will focus on 
law enforcement, and the final panel will focus on some of the 
private entities involved with emergency planning in the 
national capital region.
    We look forward to the testimony, and I would now yield to 
the ranking member, Mr. Waxman, for his opening statement.
    [The prepared statement of Chairman Tom Davis follows:]

    [GRAPHIC] [TIFF OMITTED] T7679.001
    
    [GRAPHIC] [TIFF OMITTED] T7679.002
    
    Mr. Waxman. Thank you very much, Mr. Chairman. I'm pleased 
that the committee is holding today's hearing on emergency 
readiness in the national capital region. Ensuring preparedness 
in this region is particularly challenging given the severity 
of threats facing the area and the range of Federal, State and 
local entities involved in responding to the threats across 
jurisdictional lines. This committee should do everything it 
can to promote optimal coordination of these efforts.
    I want to welcome the distinguished witnesses, who I know 
have devoted a lot of time and energy to regional preparedness. 
Your work may help prevent serious harm to many citizens of the 
national capital region--indeed it may already have done so and 
I know I speak for many others in telling all of you how much I 
appreciate your commitment to this effort.
    Our side will be anchored today by Representative Chris Van 
Hollen, a new member of the committee from suburban Maryland. 
Mr. Van Hollen represents this area and has devoted a lot of 
attention to ensuring that we have the best possible security 
plans. He will bring an invaluable perspective to this hearing 
and the tough security challenges we face.
    I also want to note that Congresswoman Norton of our 
committee has been tireless in her work to advance national 
capital region emergency preparedness. Ms. Norton's efforts 
include authorizing the original amendment that laid the 
foundation for the Office of National Capital Region 
Coordination, now directed by Mr. Michael Byrne, one of our 
witnesses today. Unfortunately, Congresswoman Norton was called 
out of town unexpectedly and could not attend today's hearing.
    This is a great disappointment to her, because she is 
actually the person who first suggested this hearing. Ms. 
Norton wanted this hearing for several reasons: One, to ask Mr. 
Byrne to describe his vision of what his job will entail; two, 
to obtain a status report on preparedness plans in this region 
to date; and three, to seek reassurance from witnesses about 
planning in the region, particularly in light of the recent 
increase in the alert level.
    I know that Ms. Norton had a positive recent meeting with 
Mr. Byrne and will be following up with him after the hearing.
    And finally, I want to commend Chairman Davis for having 
this hearing and for his great interest in homeland security 
issues.
    Thank you, Mr. Chairman.
    Chairman Tom Davis. Thank you very much.
    [The prepared statement of Hon. Henry A. Waxman follows:]

    [GRAPHIC] [TIFF OMITTED] T7679.003
    
    [GRAPHIC] [TIFF OMITTED] T7679.004
    
    Chairman Tom Davis. Mr. Shays.
    Mr. Shays. Thank you, Mr. Chairman. I have no formal 
statement other than to thank you for holding this hearing and 
to thank our distinguished panelists. They are all very 
distinguished in their fields of work. We appreciate what the 
Mayor is doing, what the Governor is doing, and what is 
happening in Maryland as well. And thank our officials, too.
    Chairman Tom Davis. Mr. Van Hollen.
    Mr. Van Hollen. Thank you, Mr. Chairman. I want to thank 
you for holding this hearing.
    I want to thank our ranking member, Congressman Waxman, for 
asking me to participate today along with him since I represent 
suburban Montgomery County here and Prince George's County.
    I also want to thank Congresswoman Eleanor Holmes Norton 
for her leadership on this issue, and my other colleagues here, 
it is great to have my other colleague from Maryland as well. 
Congressman Cummings and Congressman Ruppersberger obviously 
have a keen interest in this.
    Depending on how you define the national region, you can--
you know, and this is an issue that I know we're going to want 
to talk about exactly what constitutes the region that we want 
to plan for. We can enlarge it beyond what is actually in the 
statute itself, the homeland security statute, but I look 
forward to the discussion today about how we can improve 
security in our region.
    I would like to say at the outset that obviously the 
Washington region is not an island within the country. So 
although we're going to be focusing on this region today, it is 
important to understand that the resources that we dedicate to 
homeland security on a national basis have an impact on our 
security here. I mean, if a container ship was to come into a 
California port containing a nuclear weapon and was to come 
across the country to Washington, DC, that it obviously deals 
with our national domestic security readiness. And I was 
disappointed that efforts in the House recently to increase the 
appropriations and funding for domestic security have not so 
far been included in the supplemental appropriations bill. I 
hope that will be increased, because how we deal with this 
nationally, of course, has an impact on our region in addition 
to our specific efforts to get this region ready.
    So I want to thank the chairman for holding this hearing 
and thank my colleagues.
    Chairman Tom Davis. Thank you.
    Mrs. Davis.
    Mrs. Davis of Virginia. Thank you, Mr. Chairman. I'd like 
to say thanks to you for taking the time to discuss the 
security concerns of the Nation's Capital region. As a target 
of the terrorist attack of September 11th, it is imperative 
that our region be prepared to meet the challenges of this new 
world.
    Mr. Chairman, you've gathered a distinguished panel of 
policymakers, leaders and experts, and I'd like to thank you 
all for joining us today, and especially to you, Governor Mark 
Warner. I appreciate you taking the time to be here today 
representing our great Commonwealth on this very serious 
matter.
    I realize that the focus of this hearing is the Nation's 
Capital region; however, I'm very interested how this area is 
going to be defined. I certainly understand regional 
boundaries, but it's my hope that during this discussion today 
and in the future, that critical infrastructure for this area 
is not simply seen as inside the Beltway. After all, God forbid 
if we must endure a future attack, it is imperative that 
outlying areas, including the Interstate 95 corridor through 
the Fredericksburg region, which is Virginia's fastest growing 
region over the past decade, and maybe even down into the 
Richmond area, that they are equipped and properly funded to 
supply a mass exodus from Washington.
    I thank you again, Mr. Chairman, and I look forward to 
today's testimony.
    Chairman Tom Davis. Thank you very much.
    The gentleman from Tennessee.
    Mr. Cooper. Thank you, Mr. Chairman. I just wanted to 
extend a particularly warm welcome to my friend and former 
classmate, the Governor of the Commonwealth of Virginia, Mark 
Warner.
    Chairman Tom Davis. Thank you very much.
    The gentleman from Maryland.
    Mr. Cummings. Thank you very much, Mr. Chairman. I want to 
express my appreciation for you holding this hearing today.
    Mr. Chairman, in the audience we have our superintendent of 
the Maryland State Police, Ed Norris, and when I see him there, 
I cannot help but think about when he was serving as the head 
of the Baltimore City Police, he and our mayor, I mean, many, 
many months ago, they were the first folks that I ever heard 
really talk about homeland security. I don't know whether you 
used that term, but the fact is, is that he stood up when so 
many other people were silent. And now this issue has become a 
major issue, and I'm so glad I want to take a moment to thank 
him and our mayor, Mayor O'Malley, for standing up on this 
issue.
    I'm sure that we will hear quite a bit of testimony, but 
one of the things that we need to be very clear on is that it 
takes money to do these things. You know, we can go, we can sit 
here and talk from now until ever more about how we want things 
to be, but the fact is, Mr. Chairman, our State governments are 
suffering. I know what you've gone through, Governor Warner, 
and it's been very tough, and we're going through the same 
things in Maryland. And so I'm hoping that not only will we 
learn about the preparedness, but we need to know what this 
Federal Government needs to be doing to help the city of 
Washington, the State of Maryland and Virginia, because that's 
the real deal.
    I don't want us to be in a position where we have motion, 
commotion and emotion and no results, and the only way we're 
going to have results is to do what Ed Norris said many, many 
months ago. First, put our money where our mouths are; and No. 
2, maximum cooperation between the Federal Government and our 
State and local officials.
    And so I'm excited about this hearing. I'm glad that all 
the witnesses are here, and let me be one of the many here to 
thank all of you for what you are doing to protect the citizens 
of this great country. We're going through some very difficult 
times, and you have a tremendous amount of responsibility on 
your shoulders. And it is up to us in this Congress and 
certainly the executive branch to help you help our citizens 
and protect them.
    Thank you, Mr. Chairman.
    Chairman Tom Davis. Thank you.
    Mr. Ruppersberger. Mr. Chairman, first, I'm happy that we 
have such a great panel here today. I think this issue is one 
of the most important issues that we have to deal with. There's 
been a lot of focus on the war, but we have to focus on our 
homeland security. I like to call it hometown security, because 
I think we need to focus on the hometown, not only Washington, 
DC, but the entire region and the region as represented here 
today.
    I was a county executive in Baltimore County on September 
11th, and along with other county executives and the mayor of 
Baltimore, we worked very closely to try to address the issues 
that we hadn't addressed for a long time. I've always believed 
that you can turn a negative into a positive, and I think as a 
result of what happened on September 11th, that there's been a 
lot of refuges on what we need to do to protect ourselves from 
terrorism. And I think it's very important, and that's why I 
really like seeing this panel here today, that it be done in a 
regional basis, teamwork basis, issues such as mass transit and 
how do we deal with it. We need to make sure that we continue 
to get our intelligence. We need to make sure that we have the 
teamwork, both Federal, State and local.
    You know, a lot of leads come from local government, but 
just because you get information and you get the information, 
you also have to do something with that information.
    And the final thing is the resources. I think it's 
extremely important that we refuges some of our moneys in the 
Federal Government into the issue of homeland security, 
hometown security, and that a lot of that should go to the 
States and the local government, because the first responders 
will be our police officers, our firefighters and our health 
officers, and if we don't protect them and their lives and give 
them the equipment and the resources, they will not be able to 
protect us.
    Also, General Tuxill, I acknowledge that you're here today. 
We've had a good relationship in my former job and now, and 
good luck.
    I see Superintendent Norris. Thank you for being here. I 
know you bring a lot of knowledge from New York and the State 
of Maryland, and we're looking forward to all you do to protect 
us and the State and the entire region. Thank you.
    Chairman Tom Davis. Thank you.
    I ask unanimous consent that Representatives Hoyer, Wolf, 
Moran and Wynn, who are not members of the committee, be 
permitted to participate in today's hearing.
    Without objection, so ordered.
    Mr. Moran, would you like to say anything?
    Mr. Moran. Sure. Thank you, Mr. Chairman.
    I just came from a hearing of the legislative branch on 
security. I suspect that--in fact, I'm confident anything that 
needed to be said has been said, but sometimes we find another 
way of saying it.
    Just last week we had tens of thousands of people delayed 
for at least an hour because we had an accident on the 14th 
Street bridge, and I know the reason is because they were going 
through the mechanics of insurance processing. Those vehicles 
need to be moved out of the way. It is much too costly 
economically, socially, every other way to cripple the Nation's 
Capital for an automobile accident. And this tractor man 
business where we have one guy in a tractor able to bring the 
Nation's Capital to a grinding halt can't happen again. Imagine 
if we had had some kind of attack when everything was ground to 
a halt? It should serve as a warning to us. It should serve as 
an opportunity to figure out a way to move things along.
    You know, I don't want to be too harsh about this, but I 
think sometimes we deal with these things with kid gloves. You 
know, our first concern is that we show the political 
sensitivity that we feel we need to one individual and make 
sure that we don't harm them or upset them. Same thing happened 
on the Wilson Bridge. We got a guy that crippled Washington for 
an entire day--I think it was more than a full day--because he 
was threatening to jump. He finally jumped. He jumped into the 
water. No harm done. And now--I know it wasn't well received 
when I suggested we should have just pushed him, but I think we 
can come up with some more practical approaches than we're 
implementing right now.
    And I appreciate the fact that the chairman gave me an 
opportunity to listen in on this hearing, because there are few 
things that are more important to people than when you disrupt 
their lives. You don't give them an opportunity to get back to 
their child's day care center in time. When the kids are stuck 
at school, when they've got important things at work and 
everything grinds to a halt because of one, two or three 
individuals, it is wrong. We've got to figure out a way to stop 
it. If not for the economic reasons, now for the national 
security reasons.
    So that is all I wanted to say, Mr. Chairman. I suspect 
others have said it, and I thank you for giving me an 
opportunity to say it as well.
    Chairman Tom Davis. Thank you.
    We have a very distinguished panel here today. We have the 
Mayor of the city of Washington, Tony Williams. We have my 
Governor, Mark Warner, who has been a leader, by the way, in 
transportation and traffic. And, Mark, I appreciate everything 
that you're doing. We have Major General Tuxill from Maryland 
State Police, and Mr. Byrne is the new coordinator for homeland 
security for the Washington metropolitan region.
    It is the policy of the committee we swear our witnesses. 
So you just rise with me and raise your right hands.
    [Witnesses sworn.]
    Chairman Tom Davis. Thank you.
    Why don't we start with the Mayor, move to the Governor and 
move right down.
    Tony, thank you for being with us today, and we appreciate 
the job you're doing as well.

STATEMENTS OF ANTHONY A. WILLIAMS, MAYOR, DISTRICT OF COLUMBIA; 
MARK WARNER, GOVERNOR, COMMONWEALTH OF VIRGINIA; BRUCE TUXILL, 
ADJUTANT GENERAL, ACCOMPANIED BY EDWARD T. NORRIS, SECRETARY OF 
 STATE POLICE, STATE OF MARYLAND; AND MICHAEL BYRNE, DIRECTOR, 
OFFICE OF NATIONAL CAPITOL REGION COORDINATION, U.S. DEPARTMENT 
                      OF HOMELAND SECURITY

    Mayor Williams. Thank you, Mr. Chairman. I have a long 
history of working with the District of Columbia Subcommittee, 
and I look forward to working with the main committee with you 
as Chair and Congressman Waxman as the ranking member; 
certainly look forward to working with Congressman Norton in 
this capacity. I'm sorry she's not here. She has called for an 
examination and review of this issue.
    We look forward to working with my good friend of 
longstanding, Congressman Van Hollen, and all of the members of 
the committee. Thank you for your interest and your oversight 
and your support.
    I'm going to try to abbreviate my remarks, because of the 
time constraints of the committee and also because we do have a 
distinguished panel with many, many things to do.
    The chairman has spoken of the gravity and the need for 
this kind of review and the complexity and demands of the 
national capital region. So I will quickly report on two major 
elements of our planning effort and leave it to the rest of the 
panel to touch on other areas.
    In fact, the leadership of the District, the State of 
Maryland and the Commonwealth of Virginia have established an 
unprecedented level of cooperation among our jurisdictions in 
the national capital region. Each jurisdiction has designated 
our respective homeland security directors and the directors of 
our emergency management agencies to form something called the 
Senior Policy Group. The Senior Policy Group is charged with 
defining and implementing strategic objectives for achieving 
security across the jurisdictions. This group and work groups 
created by it have strengthened relationships with one another, 
local jurisdictions, Federal agencies, and public and private 
organizations in the national capital region.
    In August 2002, a national capital region summit was 
convened. The summit produced an agreement among former 
Maryland Governor Glendening, Governor Warner and myself. We 
are committed to work together to fulfill the following eight 
commitments to action: One, terrorism prevention; two, citizen 
involvement in preparedness; three, decisionmaking and 
coordination; four, emergency protective measures; five, 
infrastructure protection; six, media relations and 
communication; seven, mutual aid; and eight, training and 
exercises.
    Now, as Governor Warner, Major General Tuxill and Michael 
Byrne continue with their remarks, we will collectively cover 
all of these eight commitments, and I'm going to provide some 
information on two of the commitments to action: One, citizen 
involvement in preparedness; and, two, media relations and 
communications.
    I understand that you've requested information specifically 
on regional cooperation; appropriate roles and 
responsibilities; transportation, evacuation and street closure 
planning. Also you've requested information on medical 
assistance and response preparedness, telecommunication and 
communication implementation and coordination.
    As we review the eight commitments to action, we will cover 
each of these topics as they fit into and within the 
interjurisdictional planning context that we've developed in 
these commitments to action.
    So without further ado, to talk about citizen involvement 
and preparedness, the goal of this commitment to action, it is 
to utilize mechanisms for regional cooperation in endorsing and 
implementing citizen core programs within the national capital 
region. To date, partners in the region have succeeded in 
integrating the operations and planning of our citizen core 
programs, including regular regional meetings and exchanging 
program information and outreach activities.
    The offices are also developing action plans for 
coordinating Neighborhood Watch programs, Volunteers in Police 
Service, and Medical Reserve Corps. In times of emergency, our 
citizenry is one of our most valuable resources. Effective 
management of this resource is critical to ensuring an 
efficient response. Programs such as Citizen Corps, Volunteers 
in Police Service and Medical Reserve Corps provide a mechanism 
to engage citizens, identify specific skills, and provide 
community members with training opportunities. These programs 
are beneficial by increasing awareness, by establishing 
response plans, and developing a better-educated citizenry.
    I myself have had four or five town hall meetings in our 
city. Citizens want to be involved. Hundreds of citizens are 
showing up at these meetings, and these citizens recognize that 
often the first response will be citizens, and God forbid we 
were to have a major event and--or major technological tools 
are no longer at our disposal, we may be relying on more 
classic means of notification and citizens themselves for 
notifications within their community.
    So this is very important, and the President's emphasis on 
Citizen Corps could not be coming too soon.
    One of the most important ways citizens can help mitigate 
the efforts of an emergency is to learn how to prepare their 
household in an emergency. The American Red Cross, the 
Commonwealth of Virginia, the State of Maryland and the 
District have all released preparedness guides specifically 
targeted to help households plan for emergencies.
    Here in the District we've distributed more than 1 million 
copies of our Family Preparedness Guide. We've translated it 
into seven languages and Braille, and we've distributed it in 
public schools, libraries, clinics, public meetings, community 
forums, as well as through the Washington Post.
    Now, one of the issue areas you've inquired about in 
preparation for this hearing is transportation and evacuation, 
particularly as the issue has been accentuated by the incidents 
and the episodes that the Chair and Congressman Moran have 
alluded to, the tractor man, for example. This is an area that 
intersects with a strategic policy group goal of citizen 
preparedness. Clearly an area of major concern for those who 
work, visit and live in the District is being prepared for any 
incident that would require knowledge of how to safely exit the 
city in the event of an emergency. To address this concern, the 
District and Maryland and the Virginia Departments of 
Transportation entered into a memorandum of understanding to 
develop a regional transportation strategy. As a result of this 
partnership, event evacuation routes were established and 
clearly marked with signage. During a public incident, 70 
critical intersections in the District will be staffed with 
uniformed police officers to assist in the evacuation process.
    Now, I may say parenthetically that in talking to Mr. Byrne 
and in talking with Governor Warner and Governor Ehrlich, we 
have all asked for an after-action report for lessons learned 
from the tractor man incident, and I don't mean to minimize the 
lessons that can be learned from that and the need to take 
action quickly as a result of that, but I do want to stress 
before the committee one important point, as I do at every 
public forum, and that is most often the right thing to do 
during an emergency is to stay exactly where you are. 
Evacuation of the city or even a large portion of it would be a 
very rare and extraordinary occurrence, and I think it's 
important for citizens to know that.
    Let me briefly touch on another key point and priority area 
in our planning, and that is media relations and communication. 
The goal of this commitment to action is to develop processes 
and protocols for use of a virtual joint information center for 
the region during response to a major emergency, bringing 
together a coordinated voice to our public and to the media. 
We're all one regional community. We need to speak with one 
voice.
    In addition to increasing public awareness within the 
District of Columbia, the region has made great strides and 
coordination since September 11, 2001. On that day 
communication between levels of government, between local 
government and the Federal Government left much to be desired. 
We all know that.
    While local authorities have a variety of resources to 
verify incidents, the general public and even governments in 
the region across the country must sometimes rely on media 
reports for information. Interjurisdictional coordination with 
the media is imperative to ensure that the message put forth by 
the Federal Government and the jurisdictions is consistent. 
Developing a joint information system to serve as an ongoing 
operational concept will allow each organization to maintain 
its unique identity while being viewed as part of a whole.
    Now, interjurisdictional communication is also essential. 
The District, Virginia and Maryland each have emergency 
operation centers that function 24 hours a day and can contact 
key emergency response personnel throughout the region. Our 
emergency operations centers are equipped, excuse me, to secure 
video telecommunications so that we're able to communicate and 
coordinate face to face during emergency situations. Through 
our own emergency management agency, we're also able to access 
local leadership, the local county executives, for example, via 
a regional incident communication and coordination system.
    So the long and short of it, Mr. Chairman, members of the 
committee, is that in the area of these eight policy goals, 
progress is being made. Yes, there is a need to make sure that 
in terms of policy, plans and principles, that action is being 
taken, but I believe that we're well on our way, and I believe 
that as a result of September 11th, we are achieving an 
unprecedented level of cooperation and coordination between and 
among our region, and I'm proud of it.
    Chairman Tom Davis. Mr. Mayor, thank you very much.
    [The prepared statement of Mayor Williams follows:]

    [GRAPHIC] [TIFF OMITTED] T7679.005
    
    [GRAPHIC] [TIFF OMITTED] T7679.006
    
    [GRAPHIC] [TIFF OMITTED] T7679.007
    
    [GRAPHIC] [TIFF OMITTED] T7679.008
    
    [GRAPHIC] [TIFF OMITTED] T7679.009
    
    [GRAPHIC] [TIFF OMITTED] T7679.010
    
    [GRAPHIC] [TIFF OMITTED] T7679.011
    
    [GRAPHIC] [TIFF OMITTED] T7679.012
    
    [GRAPHIC] [TIFF OMITTED] T7679.013
    
    [GRAPHIC] [TIFF OMITTED] T7679.014
    
    [GRAPHIC] [TIFF OMITTED] T7679.015
    
    Chairman Tom Davis. Governor Warner, thank you for being 
with us today.
    Governor Warner. Mr. Chairman, members of the committee, 
thank you for the opportunity to appear. Mr. Chairman, I want 
to commend you as well on your foresight in holding this 
hearing at this point. I think it is absolutely critical.
    I'd like to extend greetings as well to my friends from the 
Virginia delegation, Mrs. Davis and Congressman Moran, it was 
great to see you, and respond as well to my former law school 
classmate Mr. Cooper from Tennessee. It's good to see you back 
in Congress.
    I want to touch briefly in my remarks as well as echo what 
the Mayor has already said in terms of the very close working 
relationship that has developed between the Commonwealth of 
Virginia, Mayor Williams, and Governor Ehrlich and his team, 
and Michael Byrne. You have my written statement. I'll just 
make a few brief comments.
    Obviously with our Nation focused so much on the war in 
Iraq at this point, Mr. Chairman, I think it is also very 
appropriate that you hold this hearing for us to refocus our 
efforts as well on our mission here at home. We must ensure the 
preparedness of Virginia, the national capital region and the 
Nation for all sorts of emergencies and disasters, including 
terrorism.
    Obviously this mission involves the citizens, the news 
media, the private sector, State, local and Federal agencies, 
and it is, frankly, a mission that requires us to put aside the 
traditional jurisdictional battles.
    My comments today are built around two fundamental 
principles. If we're going to be fully prepared to address 
emergencies in the national capital region, we must coordinate 
at all levels, and we must have the resources to get the job 
done.
    I'm pleased to report that we have established clear 
procedures and lines of communication between all the 
jurisdictions in the region, the Federal, State and local 
level. The level of cooperation, as the Mayor said, is 
unprecedented, and I believe that it can serve as a model for 
the rest of the country. If the neighboring jurisdictions can 
cooperate effectively in the national capital region, they can 
do it anywhere.
    In addition, it is clear that Federal support remains a 
critical component of this region's preparedness efforts. On 
behalf of the three jurisdictions, I want to thank you and your 
colleagues for the recent funding for high-threat urban areas. 
This down payment is an important step in the right direction, 
but it is only a first step. We are aware of your ongoing work 
on the supplemental appropriations bill for this year, and we 
are grateful for the additional sums that it will contain for 
our homeland security efforts.
    Clearly we are better prepared for emergencies and 
disasters than we were before September 11th. We are all giving 
much greater attention at all levels of our respective 
governments, but much more has to be accomplished. Our work in 
Virginia and with our partners in the national capital region 
is designed to achieve solutions to the unique challenges of 
this region. Like all State governments and local governments, 
we have to do this during a period of unprecedented fiscal 
crisis at the State and local level. We have done so mindful, 
though, of the region's unique needs and responsibilities to 
the Nation.
    My Secure Virginia Panel is providing important leadership 
in the homeland security area. I've selected former Lieutenant 
Governor John Hager, who is with me here today, to serve as my 
Assistant for Commonwealth Preparedness, a new cabinet-level 
position we created to coordinate Virginia's homeland security 
efforts, and I appreciate all the good work that that panel has 
done.
    Cooperation is key to our ability to deter and prevent 
attacks, reduce vulnerability and, if necessary, respond and 
recover. We also must continue to educate and inform, as the 
Mayor has outlined in some of his comments.
    Obviously, the safety and preparedness of this region is 
critical to the national and economic security of America. As 
the Mayor indicated, the Mayor, former Governor Glendening, 
Secretary Ridge and I met in August and prepared a plan for the 
region. Out of that effort came the eight points that the Mayor 
outlined and the ongoing efforts of senior policy leaders in 
each of our respective jurisdictions to work together.
    Now, this need for closer coordination is not to suggest 
that any single effort alone can accomplish this goal. We're 
all working together, but as well, we have a series of other 
ongoing partnerships and relationships. The Washington, DC, 
Metropolitan Council of Governments, the Potomac Conference of 
Greater Washington Board of Trade and the Northern Virginia 
Regional Commission are among the many organizations that are 
continuing to pursue goals in this area as well.
    We remain steadfast in maintaining strategic focus across 
the national capital region and in moving forward on all eight 
areas of commitment. Now, the responsibility for achieving the 
needed coordination is a role for State, local and regional 
leadership.
    The Senior Policy Group that the Mayor has mentioned 
continues to meet, and I continue to be updated on those 
meetings. And I want to echo what others have already said, 
that the Commonwealth applauds the selection of Mike Byrne to 
serve as the Director of the Office of National Capital Region 
Coordination. Mr. Byrne has already proven that he will be a 
strong asset in achieving solutions. He is personally leading a 
continuing effort to maintain the effort we started.
    As the Mayor addressed two of the eight issues, I'd like to 
address three other priority areas that we outlined and that we 
continue to work on.
    First, terrorism prevention: While much of our focus 
continues to be on how to best respond when attacks occur, it 
is also clear that steps to deter and prevent attacks are 
equally important. Consequently, we cannot overstate the 
importance of continuing to aggressively share information 
between the Regional Joint Terrorism Task Forces and the 
Antiterrorism Task Forces with our local, State and Federal 
members.
    Now, progress has been made in developing templates for 
regional law enforcement intelligence reports, establishing 
better reporting communication, and integrating information 
technologies to support these efforts. We cannot afford any 
weak links, and this information-sharing effort is designed to 
guard against critical information slipping through the cracks. 
Anything Congress can do to encourage and promote better 
information will be crucial to this effort. I think we've seen 
the increased level of cooperation when we all had to live 
through those 3 very challenging weeks last fall with the 
snipers, but the law enforcement cooperation in that effort was 
unprecedented.
    Second, infrastructure protection: In the national capital 
region, we recognize that government alone cannot do it all. 
That is why we are committed to work with the private sector to 
identify and set protection priorities for infrastructure 
assets and services, such as computer systems or communication 
networks, and as we all know, Mr. Chairman, with over half the 
Internet traffic in the world passing through northern 
Virginia, this is terribly important for the Commonwealth.
    Specifically, we have partnered with the Greater Washington 
Board of Trade to identify private sector core groups to help 
manage this complex but critical public-private effort. The 
three jurisdictions have agreed to leverage the resources that 
Congress has provided in joint cooperation efforts, working 
across each sector in the region.
    I'm pleased to report, Mr. Chairman, that the Virginia 
General Assembly has recently enacted legislation to promote 
information-sharing relative to threats to critical 
infrastructure. This new law was modeled on the legislation 
that you sponsored at the Federal level.
    Third, training and exercises: Our commitment in this area 
is to coordinate plans for terrorism and security-related 
training across the national capital region. Clearly the best 
way to do this is for first responders, managers and leaders to 
train and conduct preparedness exercises together. To that end, 
we have shared training courses being offered throughout the 
region, and we are encouraging cross-jurisdictional and private 
sector participation.
    Next month we will participate in the TOPOFF II national 
exercise to test command and control, information-sharing and 
joint information dissemination capabilities. This fall we will 
conduct a joint regional full-scale field exercise with first 
responders. Again, this cooperation and sharing of information 
allows us to stretch our resources further.
    In conclusion, let me mention that the national capital 
region's security depends on Federal partnership and support. 
As a matter of philosophy, no Federal responsibility is more 
fundamental than defense of the homeland, and nowhere is this 
more true than the Capital region. And as a practical matter, 
State and local governments simply do not have the resources to 
pay for this all on its own.
    Second, we would ask that you give existing homeland 
security funding procedures a chance to work. I understand 
there's growing pressure for Congress to fund homeland security 
efforts directly to local governments, bypassing States. I 
would say that such efforts should be approached with caution. 
In some cases, they could weaken efforts to promote cooperation 
between neighboring jurisdictions, or they can simply be funds 
not well spent.
    As I said at the outset, if we can cooperate, then we can 
accomplish a great deal. Since we've moved to code orange, in 
Virginia, for example, the State is disproportionately bearing 
the additional burdens brought about by code orange by 
increased State police presence at our critical infrastructure 
sites, increased presence at our health department, increased 
staffing at emergency control centers. So, please, before we 
move away from the existing funding formula, please give us a 
chance to work this through, because the State participation is 
absolutely essential.
    Finally, as I know you know, Mr. Chairman, and the members 
of your committee, there is only one National Capital, and we 
have a special responsibility to protect this region. Obviously 
we recognize that any emergency here would affect not only the 
jurisdictions bordering the District of Columbia, but their 
neighbors as well.
    Again, I appreciate the opportunity to join you. I'm proud 
of the work that we're doing here in the national capital 
region, and on behalf of the Commonwealth, let me recommit to 
continuing to work with our colleagues in Maryland, the 
District, and, Mr. Byrne, to ensure this important priority is 
maintained.
    Chairman Tom Davis. Thank you very much.
    [The prepared statement of Governor Warner follows:]

    [GRAPHIC] [TIFF OMITTED] T7679.016
    
    [GRAPHIC] [TIFF OMITTED] T7679.017
    
    [GRAPHIC] [TIFF OMITTED] T7679.018
    
    [GRAPHIC] [TIFF OMITTED] T7679.019
    
    [GRAPHIC] [TIFF OMITTED] T7679.020
    
    [GRAPHIC] [TIFF OMITTED] T7679.021
    
    [GRAPHIC] [TIFF OMITTED] T7679.022
    
    [GRAPHIC] [TIFF OMITTED] T7679.023
    
    [GRAPHIC] [TIFF OMITTED] T7679.024
    
    [GRAPHIC] [TIFF OMITTED] T7679.025
    
    [GRAPHIC] [TIFF OMITTED] T7679.026
    
    [GRAPHIC] [TIFF OMITTED] T7679.027
    
    [GRAPHIC] [TIFF OMITTED] T7679.028
    
    [GRAPHIC] [TIFF OMITTED] T7679.029
    
    [GRAPHIC] [TIFF OMITTED] T7679.030
    
    [GRAPHIC] [TIFF OMITTED] T7679.031
    
    [GRAPHIC] [TIFF OMITTED] T7679.032
    
    Chairman Tom Davis. The bells that went off are just three 
votes over on the House floor.
    What I would like to do--Mr. Byrne, I don't know what you 
and General Tuxill's schedule is, but if we could do questions 
really quickly to the Mayor and the Governor, we could dismiss 
them, and then you could have a half-hour break, and we could 
come back, and you could give your statements and ask 
questions. Would that be acceptable to you? I really appreciate 
both of you being here. I think you're both doing a great job 
under difficult circumstances, and you've always been 
cooperative with us on these issues.
    Let me ask--Mr. Shays, any questions?
    Mrs. Davis, any questions?
    Let me ask over here, Mr. Van Hollen.
    Mr. Van Hollen. Thank you, Mr. Chairman, and welcome to 
both of you. It is good to see you, the Mayor, and my classmate 
from graduate school. And, Governor Warner, welcome to you as 
well.
    And we don't have much time, so my question gets to a point 
raised by Congressman Cummings early on, which is to translate 
these plans and ideas into reality, we obviously need 
resources. There is the resources we need at the Federal level, 
nationally, then, of course, the resources we need locally in 
terms of first responders.
    I'd like you both to assess the adequacy of the resources 
that you've been receiving from the Federal Government. There 
was, as you know, an expectation at one point of many higher 
resources, and Lieutenant Governor Hager described recently the 
amount of resources that Virginia got as a real let-down, 
because you've been expecting $80 million, and you got $12.7, 
and he described it as peanuts. And it was definitely compared 
to what the expectations were.
    So my question to both--and I know the District has been 
bearing a lot of the burden of going to code orange, as you are 
in Virginia. My question is, are you receiving an adequate 
level of resources for first responders and other requirements? 
If not, what do you think an adequate level of resources would 
be? And where are the shortfalls right now? Where would you be 
spending those additional resources, and what's the risk if we 
don't provide those adequate funding?
    Governor Warner. Well, the short answer to the first 
question is, no, I don't believe we are receiving the adequate 
resources. We have the expectation last fall, as Lieutenant 
Governor Hager has indicated, of substantially more dollars. 
What that does is it raises the expectations amongst the first 
responders. When they don't see their dollars, their ability to 
plan, to move forward is seriously impaired. That ratchets up 
the pressure for some of the first responders to say, well, 
let's just bypass the State and bring these dollars straight to 
the local community. Whereas, when we moved right now up into 
code orange, well, local governments are having increased 
costs--a really disproportionate share is being borne by the 
State in increased State police presence, in increased 
presence, for example, in terms of the higher levels of the 
health department, higher levels at our emergency control 
center, and consequently we're getting squeezed both ways. 
Those are dollars that we haven't planned for, allocated for, 
and the cost is not a line cost, a linear cost, because 
depending on how long we're at code orange, you can only build 
in so much overtime. You're then going to need additional 
personnel. And so that cost rises exponentially.
    Mayor Williams. Mr. Chairman, I would look at two things, 
Congressman. One is operation, and the other is capital. As 
many people know on the capital front, the District has been--
how can I be diplomatic--uniquely treated, and so we have been 
given the dollars we need, both in terms of categorical grants 
with health and bioterrorism, as well as a grant of around $156 
million for general preparedness funding in the capital. And 
that is, as the chairman is saying--and I welcome a review by 
the GAO, and it ought to be.
    On the operational front, thanks to the leadership of many 
of you, we've received $50 million reimbursement beginning in 
2003, and so if you would ask me what is the real need at some 
increment that we're experiencing above that $50 million per 
year where we're going beyond that to meet responsibilities 
like protests, you know, terrorism threats, threat levels and 
the like, so it's really largely a personnel cost.
    I would also add, I think--just as I think our regional 
cooperation can, I think, set a model for the rest of the 
country, I think the review of this committee can set a model 
for the rest of the country, and I would urge the committee in 
your conversation with Mr. Byrne to look at the State and local 
advisory component of the President's Homeland Security 
Advisory Council. We recommended to the President a package of 
criteria for funding State and local, regional response plans. 
I, actually serving as vice chair for that panel, think it is a 
good set of criteria.
    My point is that I think it's important that we get the 
funding, and also important that we have a consistent set of 
criteria that are flexible at the local level across the 
country to use the funding.
    Chairman Tom Davis. Thank you.
    Thank you, Mr. Van Hollen.
    We're going to have to leave in just a minute. I know Mrs. 
Davis has a question.
    Let me make just one comment. First of all, I appreciate 
everything you're doing, and for Governor Warner, I don't think 
anyone has been more proactive in trying to get transportation 
dollars and moving traffic than you have in a generation, and I 
mean that, and I appreciate what you've been working on.
    One of our concerns, and Mr. Moran expressed it earlier, is 
we're going to have to look at routine traffic incidents and 
others with the idea of moving the flow, and if you'd work with 
us maybe on writing a new book or whatever, and Governor Warner 
mentioned it as well. This is a huge concern to commuters 
coming in, and we are going to have to find the right balance. 
If you'd just work with us on that, if nothing else comes out 
of this hearing, but understanding that is very important to 
the operations of government as well as to our constituents, I 
think that it will be successful.
    Mrs. Davis.
    Mrs. Davis of Virginia. Thank you, Mr. Chairman.
    Just real quickly, Governor, I've been married to a retired 
first responder for 28 years, and he served in the fire 
department for almost 30 years and just recently retired, and 
so consequently I've met with a lot of the first responders, 
and their complaint to me is that the money goes to the State, 
and they never see it. How do I respond to that? And they tell 
me there's plenty out there. They just can't get it.
    Governor Warner. Mrs. Davis, I only wish that were the 
case. We actually are very proud of the fact that as the 
Federal Government moves dollars into programs, we've had--I 
know there was an issue raised, for example, yesterday with 
Arlington. On average we've been able to get those dollars from 
the time we receive it, out into the field in about a 60-day 
timeframe. As a matter of fact, there's a new series of dollars 
up right now that--in terms of additional planning dollars that 
are--requests were due March 31st--the dollars will be out by 
the end of May.
    I think what has happened, and I think Lieutenant Governor 
Hager touched on this yesterday, is there's a lot of 
information out there from first responders thinking that these 
are kind of untapped pots of dollars. But as you know, we had 
an expectation at the State level of receiving $85 million. We 
received $12 million. I'm not sure of the fact that what we 
ultimately received ever trickled down to the first responders, 
and they had hopes and expectations of much larger dollar 
amounts.
    What we are going to continue to do is make sure the first 
responders know what kind of ultimate dollar amount we end up 
with, but we feel very pleased that we're working on about that 
60-day turnaround from the time we get the dollars to getting 
those dollars out the door.
    Mrs. Davis of Virginia. Do they have to request the 
dollars?
    Governor Warner. Yes. I think the chairman touched on this 
earlier. Looking at how all these dollars are spent, the value 
of having the State be part of the intermediary of this process 
is to ensure that there is coordination between all of the 
efforts of the local first responders. If not, you could end up 
with a hodgepodge of equipment and training going on out there 
and not allow us to go then into the coordinated fashion, not 
only within the State, but also as we look at 
interjurisdictional requirements. It is absolutely essential 
that we have that accountability with these Federal dollars 
flowing down to the first responders.
    Mrs. Davis of Virginia. Thank you, Governor, and I'd love 
to work with you on that if I could.
    Chairman Tom Davis. Thank you.
    I'll give Mr. Moran the last word here.
    Mr. Moran. I'm not going to ask a question, because I know, 
Governor, that you're doing a great job, with former Lieutenant 
Governor Hager, for the State. But I just have some comments I 
want to make, and I first want to make a comment to Tony 
Williams to think about.
    Federal transportation officials tell us that they are not 
aware of any citation being issued in 20 years for hazardous 
materials trucks going through populace areas, even though 
there is a law that says that you're supposed to use any 
alternative routes unless there's no practicable alternative 
available. They're still using major highways, Southeast 
Expressway, etc., right through the city. A couple tickets, and 
the word might spread with some of the HAZMAT trucks.
    And with regard to the State, I hope we're making progress 
in getting the hotels and the hospitals available if we did 
have some kind of spread of a serious infectious disease, that 
we move people out and make those beds available.
    And last, we get thousands of our trash trucks going 
through the Washington area, going to these major trash 
disposal places in California. California and Pennsylvania have 
more than any other State, as you know, Governor. I know you're 
concerned about that. We never check what is in those trash 
trucks coming particularly from New York or New Jersey. Once in 
a while a little--I don't know how the heck you do it, but I 
know that's an area of vulnerability we ought to think about.
    And thanks for being here at the hearing and for what 
you're doing.
    Chairman Tom Davis. Thank you both for your leadership. We 
look forward to working with you, and I'll recess. We'll get 
back about 5 minutes of 1. Thank you.
    [Recess.]
    Chairman Tom Davis. General Tuxill, we will let you go next 
and Mr. Byrne. The hearing will be resumed.
    General Tuxill. Thank you very much, Mr. Chairman.
    Chairman Davis and distinguished members of the committee, 
I am Major General Bruce Tuxill, the Adjutant General for the 
State of Maryland. And while it may seem strange to have 
someone in uniform here, I have Maryland Emergency Management 
under me.
    I am here representing Governor Ehrlich. He wished he could 
have been here today, but truly appreciates your focus on 
homeland security in the national capital region.
    I would like to extend my thanks and the Governor's thanks 
to Representatives Elijah Cummings, Dutch Ruppersberger and 
Chris Van Hollen for their service on this committee and 
especially their interest in homeland security.
    Maryland has been working with the District, with Virginia 
and the Department of Homeland Security, now, and since 
September 11, 2001 on our mutually supportive preparedness 
efforts for the national capital region.
    At the strategic and policy level, Maryland's homeland 
security Advisor, Tom Lockwood and Emergency Management 
Director, Mr. Don Keldsen, have worked closely with their 
counterparts within the NCR Senior Policy Group. I and other 
members of this panel testifying today will elaborate on the 
eight commitments as the Mayor briefed.
    And for us--for me it's the Emergency Protective Measures 
and Mutual Aid. And interwoven in my talk, I will address 
though, as mentioned by the Governor and the Mayor, we have 
been working together with our partners represented on this 
panel.
    We are very pleased that Mike Byrne was selected as the 
Director of the Office of National Capital Region Coordination. 
He truly is a catalyst for the effective Federal integration 
agency coordination within the region.
    Two, he understands our State and local perspectives. In 
the State of Maryland, we have collaborated through the 
Maryland Terrorism Forum. Action groups operating within the 
Forum use cross-discipline representation to include emergency 
management, law enforcement, health, fire, emergency, medical, 
transportation and the National Guard. Action groups exist for 
equipment, training, emergency public information, advanced 
technology and communication, and health and medical.
    We have incorporated new partners such as the U.S. 
Attorney's Office, and we are active participants in the 
Antiterrorism Task Force for Maryland. Cooperation with the 
local governments within the NCR is enhanced by Regional 
Planning and Coordination Forums on at least a quarterly basis.
    The private sector is the owner of most of the critical 
infrastructure in the Nation and the region. Thus a partnership 
between Government and the private sector is essential. We have 
collectively embarked on a Critical Infrastructure Protection 
Planning Session in the region and across the State of 
Maryland. You will hear more about that from one of our 
partners, the Greater Washington Board of Trade.
    Because the private sector is also comprised of the general 
citizenry, our joint government and private sector 
responsibility is to inform them of what they need to do to 
prepare for an incident and what to do when an incident occurs.
    Additionally, while not having an operational role or 
authority from either the State or local perspective, the 
Committee of Government has served a very useful role in the 
coordination and spreading of the word to the various publics.
    Maryland has been a dedicated partner with Virginia and the 
District on transportation issues on a daily basis, and also in 
the planning to overcome the repeat of the September 11th 
traffic situation. Much progress, as the Governor and the Mayor 
have mentioned, much progress has been made in transportation 
planning for an incident in the region, including clearly 
marked routes, the capability to synchronize signals across 
jurisdictional lines and alternate route planning.
    The pier transportation planning and coordination aspect is 
just part of the solution. Street closures in the District are 
complicated by security issues and a large number of 
independent authorities beyond the three branches of 
Government.
    Mike Byrne has been instrumental in the creation of a Joint 
Federal Committee, a standing committee to address the 
multitude of coordination issues within the Federal family in 
the region. We have committed to develop a common set of 
protective measures to protect the health and safety of the 
public in the event of a major emergency in the region.
    OPM, FEMA and GSA have coordinated plans for the staged 
release of Federal employees which would avoid putting everyone 
in the ``Exit D.C.'' mode at the same time. These protocols 
have been coordinated with the District of Columbia, the States 
and also the private sector.
    Another aspect of this issue is the commitment to mutual 
aid. Fortunately, Maryland, Virginia and the District are all 
signatories to the National Emergency Management Assistance 
Compact [EMAC], which provides a quick and effective mechanism 
to provide all types of assistance when an emergency is 
declared by one of the jurisdictions.
    Maryland has a statewide Hospital Emergency Department 
Communications Network, which optimizes effective emergency 
medical services dispatch and can coordinate responses within 
the District and Virginia as necessary.
    In the health arena, we partner with the District of 
Columbia and Virginia on syndrome surveillance and other 
disease indicators to enable us to rapidly identify trends.
    In terms of emergency protective measures, we collectively 
learned from the anthrax attacks, from the smallpox vaccination 
planning and recently the severe acute respiratory syndrome 
[SARS] infections. Protocols are shared among health officials 
in terms of mutual aid. Coordinating of credentialing medical 
personnel across State lines is ongoing.
    Maryland, Virginia and the regional local jurisdictions are 
connected for telecommunications to the Washington warning and 
alert system, a dedicated circuit. The States and D.C. are 
connected through FEMA, regional dedicated circuits, radio nets 
and satellite capabilities.
    On a daily basis, we are alerted to incidents having a 
regional impact through the Regional Incident Coordination 
Communication Center System [RICCS], via e-mail, pager and/or 
cell phone. Mutual aid communication resources may be available 
through Emergency Management Assistance Compact, depending upon 
the necessity for interoperability.
    In closing, let me say that the level of cooperation and 
collaboration among the partners of the national capital 
region, regardless of one geographical definition, continues to 
be remarkable. I applaud all involved for making this a 
cooperative effort and making it work so well.
    Chairman Tom Davis. Thank you very much.
    [The prepared statement of General Tuxill follows:]

    [GRAPHIC] [TIFF OMITTED] T7679.033
    
    [GRAPHIC] [TIFF OMITTED] T7679.034
    
    [GRAPHIC] [TIFF OMITTED] T7679.035
    
    [GRAPHIC] [TIFF OMITTED] T7679.036
    
    [GRAPHIC] [TIFF OMITTED] T7679.037
    
    [GRAPHIC] [TIFF OMITTED] T7679.038
    
    [GRAPHIC] [TIFF OMITTED] T7679.039
    
    [GRAPHIC] [TIFF OMITTED] T7679.040
    
    Chairman Tom Davis. Mr. Byrne, thanks for being with us, 
and thanks for staying here.
    Mr. Byrne. Good afternoon, Chairman Davis, Congressman 
Waxman, distinguished members of the committee.
    Thank you for the opportunity to appear today to discuss 
emergency preparedness in the Nation's Capital. I am honored to 
sit with the distinguished members of this panel. The clear, 
focused leadership demonstrated by Governors Warner and 
Ehrlich, Mayor Williams, and my boss, Secretary Ridge, has 
allowed us to accomplish much in a short time to make the 
Nation's Capital safer and stronger.
    The Office of National Capital Region Coordination was in 
Section 882 of the Homeland Security Act of 2002, with the 
mission to oversee and coordinate Federal programs for and the 
relationships with State, local and regional authorities in the 
region.
    Congress established this office in recognition of the 
importance of our region as the symbol of the Nation, the seat 
of our Government and home to millions of people. The 
complexity of relationships, roles and responsibilities that 
exist within the national capital region also requires special 
consideration.
    Unfortunately, a commensurate threat exists for which we 
all must prepare. Success in preparing and securing the 
national capital region is not simply a Federal or even a 
public matter. All of us within the region must work together 
to ensure our collective security, including the Federal 
Government, State and city governments, private-sector, 
nonprofit organizations, as well as individual citizens. Each 
brings to the table their own responsibilities and authorities, 
and it is the job of the Office of National Capital Region 
Coordination to see the capabilities that each group brings are 
coordinated and integrated into a widely known and well-
practiced system that ensures our preparedness and security.
    As I had mentioned, the complexity of relationships, 
jurisdictions, roles and responsibilities is staggering. Many 
separate local jurisdictions must work in concert with each 
other, with their State counterparts, the Federal Government, 
all three branches of the Federal Government and the private 
and nonprofit sectors in order to achieve preparedness. We are 
off to an outstanding start. The leadership of the District of 
Columbia, Maryland and the Commonwealth of Virginia have 
established an unprecedented level of cooperation among the 
jurisdictions.
    As mentioned earlier by previous speakers, the Senior 
Policy Group and the work groups it creates strengthens these 
relationships. Additionally, coordination and cooperation is 
greatly improved among Federal departments and agencies.
    We have created a Standing Joint Federal Committee drawn 
from all three branches of Government to coordinate Federal 
work force protection with other regional efforts. The Joint 
Federal Committee developed the protocol addressing the Federal 
Workforce Emergency Release Process, expanding protective 
options and integrating State and local government into the 
process. Protocols defining each decisionmaking process were 
briefed to the legislative, executive and judicial branch 
Chiefs of Staff in February 2003.
    Another recent success that demonstrates the improved 
Federal cooperation and coordination is the release of the 
Office of Personnel Management's Guide for Federal Employees 
and Managers. OPM developed the guides in concert with a wide 
range of expertise from across the Federal Government. Our 
office was instrumental in bringing together the right experts 
to work with OPM and participate in the development of the 
guides. In the few weeks that these guides have been available, 
they have been downloaded by more than a quarter of a million 
people to use.
    Additionally, on March 25th, I joined the Director of the 
Office of Personnel Management to discuss emergency readiness 
with 24 unions representing Federal employees. Much progress 
has been made, yet much work needs to be done.
    We will continue to develop and improve relationships and 
cooperation at all levels of government and with the private 
sector. The high-threat, urban-area funding, that has been 
targeted for the national capital region, provides a unique and 
exciting opportunity to strategically utilize the funds 
available to improve capability across all jurisdictions that 
compose the national capital region. These funds will be used 
to build capacity and support the region by developing joint 
planning, training and exercises.
    One of the primary response concerns in the national 
capital region is quick and efficient transportation out of the 
area during an incident. We must coordinate egress routes that 
allow for a safe and fast exit from harm's way without 
eliminating all ingress routes that will allow our emergency 
responders to do their jobs effectively. This is a significant 
challenge that will require both creativity and flexibilities.
    Currently our office is working with the District, Maryland 
and Virginia and all the local jurisdictions on a plan that 
will address our protective measure options which include as 
one of them, evacuation.
    Additionally, the Joint Federal Committee is working with 
State and local law enforcement, Emergency Management and 
Transportation Agencies to develop practical protocols for 
security-related street closures.
    In closing, the Nation's Capital presents a unique 
challenge for those who protect its citizens and institutions, 
especially from the threat of terrorism. The Office of National 
Capital Region Coordination serves a key role in the support of 
the Senior Policy Group to continue to enhance the broad 
regional, strategic perspective and coordination.
    These efforts have begun to achieve this aim, but 
continuing dialog is critical to its ultimate success. More 
importantly, the effort represents the collective decision that 
preparedness is not the responsibility of a few, but rather the 
united efforts of the many.
    Thank you.
    [The prepared statement of Mr. Byrne follows:]

    [GRAPHIC] [TIFF OMITTED] T7679.041
    
    [GRAPHIC] [TIFF OMITTED] T7679.042
    
    [GRAPHIC] [TIFF OMITTED] T7679.043
    
    [GRAPHIC] [TIFF OMITTED] T7679.044
    
    [GRAPHIC] [TIFF OMITTED] T7679.045
    
    [GRAPHIC] [TIFF OMITTED] T7679.046
    
    [GRAPHIC] [TIFF OMITTED] T7679.047
    
    [GRAPHIC] [TIFF OMITTED] T7679.048
    
    Chairman Tom Davis. Thank you both. Mr. Byrne let me just 
start with you.
    I know you were brought in for the homeland security aspect 
of this, but really when you talk about the Federal, city and 
the Nation's Capital, it came to bear after an incident in 1783 
when a group of pensioners from the Revolutionary War marched 
on the Continental Congress assembled in Philadelphia. The 
local militia was sympathetic to the pensioners, allowed the 
pensioners to march and chased the Continental Congress across 
the river into New Jersey, and that is what inspired Madison 
and others to say we need a Federal zone because there is a 
Federal responsibility here, and we need to control our own 
areas.
    We have had a number of incidents over the past few months, 
some of them tangentially homeland-security related, some of 
them traffic accidents and others, where traffic is held up 2, 
3 hours sometimes. We can't get quorums and start hearings on 
time here. Agencies coming to a standstill. And although local 
police and Federal police--it is a whole--each incident has 
it's own little matrix. But it seems that moving people around 
in the Capital City is not the priority. And gives us some 
thought that maybe we ought to federalize those aspects 
because, frankly, moving people in and out of the Nation's 
Capital so they can do the Nation's business is a Federal 
responsibility and something we in the Congress are accountable 
for. And if we can't get the recognition and the prioritization 
at the local level, it may be something we have to take over.
    What are your thoughts on this?
    Mr. Byrne. In the time I have been meeting with local 
officials on these issues, I would have to say, Mr. Chairman, 
that there is no one that doesn't agree with you about the 
priority in this and everybody is willing to work it better.
    I think the challenge is to provide vehicles for 
coordination, and I see that as an opportunity for my office to 
play a role in terms of making sure that the right people are 
communicating together quickly and early when things happen and 
to, you know, facilitate that.
    Chairman Tom Davis. Let me give you another example.
    It is not just the local delegation and a bunch of angry 
constituents. My friend and colleague from northern Virginia 
just walked in. Frank, I wonder if you could share with them a 
comment you had from a member yesterday about the traffic jam 
on the 14th Street Bridge. And we are hearing from members 
about their ability and inability to get here on time.
    Mr. Wolf. First of all, let me say I don't think VDOT, the 
State, the region are doing the appropriate job to enable 
people to get back and forth. Yesterday, because of what took 
place on the 14th Street Bridge--which may very well not be in 
Virginia territory but it is a Virginia obligation, because 
there are Virginia people that are backed up--this member, I 
won't give the name, passed me a note showing that he left his 
House at 5:32 a.m., yesterday and got in at 8:52 a.m., 
yesterday. We have asked VDOT, and we have asked the region to 
come together to deal with this. Several months ago on the 
George Washington Parkway, a bus stayed on the Parkway from 
4:15 a.m., to 7:15 a.m. Nobody moved it. Every other week there 
is a major accident or fender bender on the other side.
    So if you are talking about evacuating this region--we 
can't even deal with just a fender bender on the 14th Street 
Bridge, the Memorial Bridge, the T.R. Bridge, Woodrow Wilson 
Bridge or the Key Bridge--and it took that individual over 3 
hours and some minutes.
    For some reason, VDOT and the region just can't get 
together. You need tow trucks on all these bridges to move 
vehicles quickly, pull them off and deal with the traffic 
problem later on. But getting in and out is becoming very, very 
grim every morning, and I don't know if that is the subject, 
what people are talking about. It is out of control.
    Chairman Tom Davis. In trying to preserve the scene of the 
accident, so they can get the pictures and have an officer come 
and see where everybody is, it is important to that case.
    Ordinarily, I would think you would want to do that from a 
police perspective. But when you are holding up tens and 
thousands of commuters, stopping the workings of Government, 
not allowing congressional hearings to get a quorum, we 
couldn't get a quorum yesterday. We couldn't get a quorum in 
our caucus yesterday morning. It is usually about a half hour 
to 45 minutes for me to drive in. It was almost 2 hours 
yesterday morning. And I know there are accidents, and it is 
complicated, and there are going to be delays, but the priority 
ought to be to get everybody off, safely, but off the road as 
quickly as we can so we can clear the arteries and then 
commerce and Government can function.
    And I guess the concern here is, as Mr. Wolf says, if a 
fender bender stops this or a guy with a tractor with a bad day 
can bring us to a stop, imagine what a terrorist can do. That 
is the concern. And I wanted to deliver that. It is not just 
the regional delegation. There are members that are pinning on 
us wondering as well. And if we have to federalize it, we will 
federalize it. This is serious business, and if we can't 
coordinate locally over who is to do it, then we will have to 
take it over. And you are the guy.
    Mr. Byrne. Yes, sir. Those are my comments.
    Chairman Davis. Mr. Van Hollen.
    Mr. Van Hollen. Thank you, Mr. Chairman. Welcome, 
gentleman. General Tuxill good to see you again. Mr. Byrne, 
welcome.
    I asked the members of the earlier panel about the resource 
question because I hear from my county executives in Montgomery 
and Prince George and my colleague, Mr. Ruppersberger, hears 
from his local officials that they are not getting the funds at 
the local level, the resources they need to meet the security 
needs for first responders.
    There are two possibilities. One is adequate funds are 
flowing to the States but they are not flowing down to local 
officials. My sense is that adequate funds are not flowing to 
the States.
    You may recall we had an Omnibus Appropriations Bill pass 
out of here a little while ago. $3.5 billion additional funding 
for domestic. The way it came out of here, to the regret of 
many of us, people actually took money from other areas for 
first responders to count toward the $3.5 billion. So you 
didn't have anything on the order of a $3.5 billion increase, 
and the results of that--and I am hearing from the States there 
are inadequate resources at the State level.
    So I would ask both of you gentleman if you could respond 
to whether or not the States are receiving adequate resources 
to meet the jobs and needs in this Capital region. If not, what 
additional resources are necessary, and what are the risks that 
we are taking now by not providing those resources.
    Mr. Byrne. First and foremost, in the supplemental request, 
there is a request for additional funding, so we agree we need 
to get more funding to State and local levels.
    You know, we think that the important thing about that, 
consistent with the President's strategy for homeland security, 
is that it be part of a comprehensive plan, which is why we see 
the need to work with the States and have the States work with 
their local communities to have the same kind of system, the 
same identification or types of resources and things like that.
    In the supplemental request, there is $1.5 billion for 
additional--additional $1.5 billion, and we think that will 
help along and provide the kind of resources that they need.
    I think another important step, that is actually in the 
proposals for the 2004 budget, is that, you know, we sort of 
need to update and spend the money effectively and prudently, 
that we do an update of the assessment that was done.
    In fact, most of the assessment work was done pre-September 
11th and to look at the State and local capabilities and to 
identify, which is something I am going to be working with the 
local jurisdictions here in the region to do, to clearly 
identify what the right requirements are, so we can 
intelligently and effectively answer your question.
    General Tuxill. One of the things--as far as money getting 
down to the local level, we have had a lot of press out that 
says, OK, look how much money is coming to the State. One of 
the interesting things is we have obligated all of our funds 
for fiscal years 1999, 2000, 2001, 2002 designated for the 
local jurisdictions. And the State obligation for Maryland is 
almost complete for 2002. The current cycle, 2003, which we are 
in, is just being received, and we are starting to process it.
    So as you can see we are almost 9 months into the State 
fiscal year and a little over 3 months into the Federal or, 
excuse me or even more than that, 6 months into the Federal 
fiscal year. So there is a big delay in receiving those funds.
    While we hear the press release when it happens and when 
Congress says we have got the funds, it takes it a good while 
to appear in the State. So I think that is one of the problems 
that we have. I can tell you in Maryland, sir, what we do is 
get all of the players around the table to include all of the 
local jurisdictions and some of the State agencies, and we sit 
down and say, here is how much money we have and we start a 
collective consensus to get the things that people need, so 
that we have that interoperability.
    I think Governor Warner was right on the mark when he said 
that the State should get the money, so that we ensure 
interoperability. We had a terrible problem with that in the 
military and Goldwater Nickels came out and said, you will talk 
to each other. So we get the Navy talking to the Marine Corps, 
talking to the Army, talking to the Air Force. We have to make 
sure we don't have something like that happening in the 
national capital region. Communicative powers and that we are 
able to collectively address situations and that is part of 
that equipment.
    Mr. Van Hollen. Same issue, quick followup for Mr. Byrne.
    You mentioned the additional funds coming to the region 
from the Urban Area Security Initiative. It is about $18.2 
million. How are you going to allocate those funds, and have 
you made any decisions in that regard?
    Mr. Byrne. We are going to look at this as a region, and it 
got cooperation from the two Governors' offices and the Mayor's 
office to work together to do the kind of things that are 
strategically the right fit for the regional area. And that is 
to look at the kinds of joint training, where not just 
individual jurisdictions are sitting in the classroom on a very 
simple basic level, but they are all getting the same training 
on a planning level, to do some of the better planning we need 
to do, especially in the area that has been brought up many 
times, you know, about movement of people and things like that. 
I think that is an opportunity for that. I also think it is an 
opportunity for us to identify assets and resources and 
capabilities that could have strategic regional capability. And 
we are going to sit down and plan that out. There are some 
things that seem obvious already that would be high on the 
priority list to include interoperable communication, data 
sharing across the jurisdictions so that the USCs are all 
seeing the same information simultaneously and also in the area 
of health and medical, like surveillance and things like that.
    Mr. Van Hollen. Thank you.
    Chairman Tom Davis. Before I yield to Mr. Wolf, we are 
putting money into some of these areas, but to move a bus, to 
move cars on time, to do some of these things doesn't take a 
lot of money, it just takes strategic thinking. But while we 
are waiting for the big one to happen, and getting ready for 
the huge attack, we have these mini-attacks everyday, some of 
them intentional, some of them unintentional. But one guy with 
a tractor holding up the rush hours is, in my opinion, 
something for the money we are spending. If the current 
leadership can't do it, we have to find somebody who can.
    Mr. Wolf. Thank you Mr. Chairman. Thanks for having the 
hearing.
    Three points: we are closing too many roads in the District 
of Columbia. You cannot keep closing the roads. We're becoming 
vulcanized. You can't get in front of the White House or back 
of the White House. You are having problems all over this town. 
Somebody has to meet with the White House, and you are now the 
Area Coordinator--and say, we can't keep closing these roads 
because everytime you close a road, you make it harder and 
harder for people to come in and then leave the city.
    Second, coordination. I have a request from a group of 
hospitals in northern Virginia asking for communications 
systems, but they don't include Sibley. They don't include the 
hospitals in Maryland. If something were to happen, the 
likelihood of somebody being taken to a Maryland hospital or a 
D.C. hospital is just as great as coming out to Loudoun or 
Fairfax. On communications, the George Washington, Hospital 
Center, Sibley, they all have to be tied in. So if you could 
comment on that. And do all these requests for the region come 
in through you simultaneously when people are asking? Somebody 
has to coordinate, so we don't buy a system for Fairfax 
hospital and they can't speak with Sibley.
    Last, working with Mr. Davis, we put money in to create the 
Emergency Response Center at the George Washington University 
Loudoun campus to train emergency response people. Are you 
involved in that? Are you making sure that the regions from 
Warren county to Frederick county up in Maryland, that our law 
enforcement people, police, rescue and fire will all be in the 
first class that will be trained in that center? So on closing 
of the roads, on the coordination and are you involved in 
making sure who goes through that center first?
    Mr. Byrne. On the road closure issue yes, we formed this 
Joint Federal Committee that pretty much the security people 
are from. And the law enforcement aspects, you know, Secret 
Service, Park Police, Federal Protective Service, Capital 
Police, Supreme Court Police, we have representatives on that 
committee, and we look at the issue of road closing more 
clearly and come up with a better protocol for it.
    We have to look at this strategically and in the levels 
that are appropriate. I think there are sections of it. So if 
there was an incident where a building had a fire and everybody 
needed to get out of the building. You know, having to close 
the street in front of that building is like an immediate 
thing, where all we want to do is have notification. Then there 
are things that we can talk about more. We can sit down, and we 
have time to evaluate, to discuss and say look, what are we 
really trying to accomplish and what is the most effective 
protective action we can take for that building or that 
facility. And there is a dialog, and we are going to look to 
improve the way that process happens.
    On the issue of hospital communication and coordination, I 
think that is critical. In fact, I have been in touch with HHS 
and with some of the Hospital Association people to look at 
that. I think there is a communication system in place. As to 
whether or not it is doing the job it needs to do, is something 
I look forward to looking into more closely.
    Mr. Wolf. Do all of the grant applications for secuirty--I 
just used as an example--do they all go through you, so you 
know what everyone else in the region is doing so there is not 
an overlap. Do all the grant applications at least have to be--
do you have to check off on them or do they say we are sending 
something in but here's what we're sending, so you see 
everything in the region?
    Mr. Byrne. I think--one of the best parts of creating the 
Department of Homeland Security was the effort to consolidate 
the way all grants are administered within one department. I 
work closely with that office. I think it makes sense from a 
strategic point of view that the overarching policy body takes 
a look at those things, so we don't do as you suggest, buy 
something that works for that one community but can't work 
across the whole region.
    Mr. Wolf. But there is no process now to send everything 
through you before they come to Washington for the region?
    Mr. Byrne. There is no fixed process at this point in time, 
but we are developing one. The office is only a couple weeks 
old.
    Mr. Wolf. The last question is the GW Training Camp.
    Mr. Byrne. I met with them. I was over at GW about 2 weeks 
ago. This area is so rich in each kinds of functional area in 
terms of fire training, law enforcement training and hospital 
training and emergency medical training. We are looking to 
establish and work with especially with GW in the area of the 
emergency medical capabilities.
    Mr. Wolf. And you will have all of our people trained there 
first?
    Mr. Byrne. The idea is that everybody in the region would 
get the same kind of training. It is really important to be on 
the same page when you are working a disaster, so that when you 
say, this is this kind of asset, that everybody right away 
understands that. So we are looking not only to have everybody 
get trained in the same area, but to get the same training, the 
same curriculum that is consistent across the whole region.
    Mr. Wolf. And knowing where I think you live, how long did 
it take you to get in to work yesterday?
    Mr. Byrne. Sir, I left pretty early, it only took me about 
45 minutes. I left----
    Mr. Wolf. What time did you leave?
    Mr. Byrne. Quarter of 5.
    Chairman Tom Davis. That is a nonstarter from here.
    Mr. Ruppersberger. I know neither one of you have a lot to 
do with the traffic issue. But on the Maryland side, I live 
north of Baltimore City and yesterday--usually it takes me the 
most an hour and 30 minutes. I left at 6:30 a.m. and got here 
at 9:45, so it was only 3\1/2\ hours.
    So, Mr. Chairman, I would suggest that if this is a 
continuing problem, and it is not being solved, maybe we should 
look at it from a Federal perspective because it is going to 
take a regional approach from both Federal and State to deal 
with that issue.
    First thing my background comes--I have been in local 
government for 18 years. I was a county executive for 8 years. 
I was a county executive during September 11th. And during that 
period of time, we took a lot of resources and transferred 
resources into the homeland security area. We were learning as 
we went along, as all of us were. I am a rookie so the bells 
bother me a little bit. So the issue there was transferring a 
lot of resources and trying to make sure we could take care of 
the problem because it was a very active issue at the time.
    Now, yesterday we had a hearing which kind of concerned me. 
It was a hearing involving narcotics and drugs. And we had 
individuals from Federal, State and local government that 
really were stating yesterday that there are a lot of resources 
that are being transferred from the Drug Enforcement into 
Homeland Security and that to me is very dangerous because we 
still can't take the eye off the narcotics ball.
    If you look at the statistics, narcotics and drugs are--
probably at least 80 percent of all violent crime is drug 
related. Now, if we are going to take our resources from that 
one end to another, that is really going to create even more 
problems. What the issue is, the issue is we need more 
resources. It has been said over and over, we equipped our 
troops as we should. We give them the resources, but we haven't 
done the job here to give the resources that are needed. If we 
don't face that issue now, it is going to start to affect a lot 
of things that are happening because we are going to keep 
moving in the area.
    Now, let us talk about implementation. No. 1, again 
referring to my job as county executive, I thought one of the 
most effective programs when we dealt with the Federal 
Government was the COPS program. And that was a program that 
really if you could justify why you needed the money, you had 
to be held accountable for what you did, we get money directly 
from the Federal Government to the local government, and we 
would get police on the streets right away. I am sure the 
National Association of Governors might not like that. I know 
our Governor, Bob Ehrlich, who I know very well and have a good 
relationship with, has no problem with that. He wants the money 
to go where it's needed.
    And what happens when you get money from the--when the 
local money gets money from the Federal Government, the Feds 
press down on the State, the State presses down on the locals, 
and the locals don't have any place to press. What happens when 
you have that and you get that money, I would say sometimes 
half that money goes to bureaucracy, and it doesn't go to where 
the needs are. And I want to ask you the question more of you, 
Mr. Byrne, then Major Tuxill, I would like you somehow, if you 
would consider taking back to the administration the formula 
that we used in the COPS program because it worked and it 
worked well.
    I know there is politics there with the Governors, but if 
the other Governors would take the position of our Governor in 
Maryland that he doesn't care who administrates it, let's just 
get money to the first responders so we can make a difference.
    And let me say this, and I will let you answer the 
question. In the Second Congressional District that I 
represent, I have NSA, Fort Mead, BWI, the port of Baltimore, 
Abderdeen and I have--80 percent of all the chemical companies 
in the State of Maryland are located in my District.
    So there are a lot of issues involving homeland security 
other than just those institutions I talked about. And why I 
say that, it's my understanding that a lot of the money is 
being given out on the issue of population, and it seems to me 
we need a lot more flexibility. The population is where the 
risks are. It's like saying if D.C. doesn't have the population 
that South Dakota has, give more to South Dakota. That doesn't 
make any sense. I raised those issues, and I would like you to 
respond, especially to the COPS program, because I want to find 
a way as quickly as we can to get money to first responders, 
because I think you know if September 11th occurred a week ago, 
and we were asking for money right now, we would get it. And 
how soon we forget, and we can never forget. So let us make 
sure we get what we need for our homeland security.
    Mr. Byrne. We certainly support getting money for first 
responders. I spent most of my career as a first responder. I 
was a New York City fireman for 20 years and I know--I just 
want to do my job, and I wanted the resources to do it.
    So we definitely want to see the money get where it needs 
to go and to build the capability, because again, the single 
best chance we have of impacting an incident, no matter what 
kind of incident, in a way that saves lives and protects the 
people, is to have our first responders get there, have what 
they need to get it done.
    Looking at the COPS program, I am not as familiar with that 
program as I am with some of the other programs, but we 
certainly will take a look at that, based on your 
recommendation, and see if maybe that is a better way to do it. 
But the important thing is for us--is that--is that public 
safety in our country is a bit disjointed. Different 
jurisdictions do things and respond in different ways. I think 
our sort of luxury of being able to operate that way is no 
longer the case, and we need to line up in a way that doesn't 
take away the individual autonomy of each of the components, 
but have them at least have common ways of doing things. And 
the best way for us to do that is to have some kind of 
centralized leadership, so that when they do spend this money 
and spend it effectively, it builds the Nation's capability, in 
our case, the region's capability and not just an individual 
jurisdiction, so that their capability stops at the border. 
September 11th, as a New York City fireman, I never thought in 
all my career I would ever see the need--we had 16,000 firemen 
and EMS personnel in the New York City Fire Department. I never 
thought I would see the need to have people come in from the 
outside to help us. September 11th proved me wrong big time and 
I recognize that we need to be one united team.
    Mr. Ruppersberger. I feel very strongly, and I would like 
you to look at that program. Your president of International 
Fire Fighters was pretty strong. I am not saying his quotes, 
because I don't think I should criticize the president at this 
time. His quotes were very strong that we're not getting what 
we need. And you know we can talk about team work, but we're 
not getting anything accomplished. And I think it is extremely 
important that we try to get to the basics and get to some 
implementation. I am going to do everything I can to encourage 
the president to do that. And I would hope that you at least 
consider it. It could be controversial because it's money that 
goes directly to the locals, but that's what we're calling out 
for.
    And getting back to traffic, the entire issue with traffic 
has got to be a regional situation. And you know, the day of 
imagery and taking pictures, you know, someone is on an 
accident scene for 3 hours. Mr. Chairman you make a lot of 
things happen here, I would like to work with you on that 
issue.
    Chairman Tom Davis. Mrs. Davis.
    Mrs. Davis of Virginia. Thank you Mr. Chairman, I will make 
this quick because we have to go vote.
    First, Mr. Byrne, thank you for your service as a 
firefighter for 20 years. That is near and dear to my heart.
    According to Virginia's Rappahannock Planning District 
Commission, over 27,000 people commute from my district back 
and forth to Washington, DC, everyday. And if you have been on 
95 going south, you know what that congestion is like. If we 
are faced with a mass exodus from Washington, the traffic in my 
opinion, the HOV merge lane at Prince William/Stafford border 
would probably back up all the way to Springfield, and I think 
we would have a major problem.
    My question is, has your office had conversations with the 
local authorities south of Prince William County. No. 2, is 
there currently any coordination with the first responders who 
may be needed in an area-wide emergency and are Prince William 
County, Stafford County and Fredericksburg expected to be ready 
to support the Beltway efforts.
    Mr. Byrne. At this point in time, I haven't had the 
opportunity to talk to any of the jurisdictions outside of what 
has been defined as the national capital region and the 
legislature. But I do think it is important they know what we 
are doing. You are absolutely right; at some point, the people 
may be headed their way. So I think it is important for us to--
you know, not plan in vacuum but to share those plans. As to 
what role they would play in a response, I am not at the point, 
now, where I can make a definitive statement as to what their 
support and what kind of requirements we would be asking them 
to come into.
    But going back to that bigger issue, I think we are looking 
to create within the Department a sort of standard system for 
public safety, you know, that would facilitate that kind of 
cooperation and response.
    Mr. Davies. I certainly would hope that you would keep that 
part of the District in mind, because like I said, 27,000 folks 
is a lot of people, and I would like to say Mr. Chairman, I 
welcome the sheriff of Stafford County, who is here today.
    Chairman Tom Davis. General Tuxill, thank you for staying 
with us. It was very helpful, your testimony. Mr. Byrne, I 
understand this is your first time before a congressional 
committee, you did a great job. I look forward to having you 
back. You have a very tough job, and you have nothing but our 
respect and admiration as we work through some difficult 
problems. And we learn from our experiences. We have traffic--
some of it because of the laws we have passed. We haven't done 
the right things and everything else and we get frustrated, but 
we can do a better job working together, and that is only one 
aspect of your many responsibilities, but you did a great job 
here, and we appreciate having you here.
    We are again voting, but this is just ordering the previous 
question, and perhaps after--this is just a vote on a rule, so 
we should be back here in 15 minutes to start our next panel. 
Meeting is in recess.
    [Recess.]
    Chairman Tom Davis. We're ready to start the next panel. If 
you'll remain standing.
    [Witnesses sworn.]
    Chairman Tom Davis. Thank you very much, and thank you for 
being patient with us. We're not expecting another vote for an 
hour and half. I hope I can get through both panels in that 
period of time and get everybody home.
    Mr. Harp, why don't we start with you, and then Ms. 
Chambers and then to Chief Ramsey. And we have your whole 
statement in the record. You can highlight what you'd like to, 
and we'll go right on to questions. It won't be too bad.

  STATEMENTS OF VAN HARP, DIRECTOR, WASHINGTON FIELD OFFICE, 
 FEDERAL BUREAU OF INVESTIGATION; TERESA CHAMBERS, CHIEF, U.S. 
  PARK POLICE; AND CHARLES RAMSEY, CHIEF, METROPOLITAN POLICE 
                           DEPARTMENT

    Mr. Harp. Good afternoon, Chairman Davis, and members of 
the committee. I welcome the opportunity to appear before you 
to discuss our role and capabilities regarding emergency 
preparedness and response in the national capital region.
    As you know, in recent months, the FBI has undergone 
extraordinary positive changes to better address the most 
important priorities set by Director Mueller. The top priority 
at the FBI is preventing future terrorist attacks. In addition, 
the FBI is actively pursuing threats posed by foreign 
intelligence services and transnational criminal enterprises. 
In meeting these priorities, the FBI, as an organization, and 
WFO, in particular, thoroughly understand that these priorities 
can only be effectively met by focusing on the outstanding 
relationships that we have established over the years with our 
law enforcement and first responder partners.
    Located in the Nation's Capital, WFO has a strong standing 
tradition of cooperation with State, local and Federal 
agencies. That tradition is steeped in the history of diverse, 
joint investigations, numerous joint responses and regularly 
scheduled joint training initiatives. WFO is unique, in that it 
is the elite investigative agency in the Federal Government's 
response to terrorism incidents that directly affect the 
national capital region.
    These close relationships were established long before the 
terrorist attack on September 11th. They cover the full 
spectrum of criminal counterintelligence, counterterrorism and 
cyber crimes, and are best exemplified by our Joint Terrorism 
Task Force which was established a decade ago.
    Coordination begins at the executive management level, and 
there isn't a day that passes where I'm not in direct contact 
with area police chiefs, sheriffs and Federal agency heads to 
include representatives from our military intelligence 
agencies.
    There are daily conference calls and in-person briefings. I 
have provided the various chiefs and sheriffs with networked 
instant paging to further enhance our ability to share 
information in intelligence in a real time format, and in fact, 
just this morning, we completed and in-depth intelligence brief 
with approximately 30 to 35 of the departments in the national 
capital region represented.
    WFO has one of the oldest JTTF task forces in the United 
States, and it was established in 1993, and also has the 
largest number of participating agencies currently consisting 
of 23 State, local and Federal agencies, all collocated as one 
investigative counterterrorism unit. This is mirrored by our 
other joint task force operations across the gamut of our 
operations.
    Training is provided directly to outside agencies by WFO, 
FBI personnel, and is accomplished through tabletop exercises, 
joint practical exercises, joint SWAT team scenarios and 
various in-services. Real-life scenarios are utilized, 
recreating the events Washington, DC, law enforcement has faced 
through the years.
    Participants in these exercises cover the area, State, 
local, Federal agencies and emergency response, fire and rescue 
service, military and intelligence agencies. My assessment is 
that the level of cooperation between myself and our partners 
is outstanding and unparalleled in law enforcement in the 
United States.
    This spirit of cooperation has been passed down to the case 
agents and representatives assigned to the various task forces 
within the Washington field office.
    This has been exemplified during past several years and in 
such cases as the CIA murders, the murder of the agents in the 
Metropolitan Police Department officer at MPD headquarters, the 
recent sniper investigation and the murder of the two Capitol 
Police officers in the Capitol in 1998.
    In addition, our cooperative efforts were put to the test 
during the Pentagon attack and the anthrax attacks affecting 
you and your colleagues, and I believe we in law enforcement 
passed exceptionally well with respect to the level of 
cooperation.
    The spirit of cooperation was so great, in fact, that a 
review of the Pentagon response was funded by the Department of 
Justice for Arlington County, VA for dissemination across the 
United States. The independent report, which is available upon 
request, finds that the level of cooperation exhibited in the 
National Capitol Region was so extensive, that it should be 
duplicated for the entire United States.
    I'd like to also describe the Joint Terrorism Task Force 
and our National Capitol Response Squad, if I may, which are 
just two of WFO's squads and operations that conduct 
counterterrorism operations in conjunction with local 
authorities.
    The WFO, JTTF was established in 1993, as I said, and it is 
one of the oldest and currently the largest JTTF in the United 
States with the 23 outside agencies and 15 agent--FBI agents 
assigned to it. It's located in our office base and trained, 
funded and supplied totally by the FBI, WFO.
    All 23 detailees work full-time for the JTTF and have the 
same clearances and access as FBI agents. A list of all the 
agencies represented in the JTTF is too extensive, but I have 
it available with me.
    Each detailee has a top security clearance and has direct 
access to all FBI data bases, communications and intelligence. 
Each detailee has a WFO-provided computer on his desk along--
his or her desk along with a computer link to his or her home 
agency. In this way, the JTTF can almost instantly access 24 
separate data bases from one investigative squad.
    It is literally a one-stop shopping for counterterrorism 
information and intelligence, and it is the most effective 
platform prevention since it includes the assets and the best 
each agency has to offer.
    Collocated with the JTTF is the National Capitol Response 
Squad. The NCRS is a rapid response highly specialized 
counterterrorism unit designed specifically for the National 
Capitol Region. The unit was formed out of the original JTTF in 
1999 to give the region a quick response capability for 
terrorism incidents.
    The unit is designed to be part of the first responder 
community in daily works within that arena. The NCRS responds 
to the various incidents which occur in this area each day and 
meshes with the other local first responders to jointly resolve 
whatever situation they encounter.
    It was designed specifically to respond to identify, 
isolate, mitigate and control incidents of an explosive 
chemical, biological, radiological, nuclear or armed assault-
type of incident. It is also designed to work in isolated 
environments where outside support may be prevented from 
reaching the unit quickly.
    The unit was designed literally to hold until relieved by 
the various national assets that could be called upon to assist 
from the FBI critical incident response group, the Department 
of Energy and the Department of Defense or others.
    The National Capitol Response Squad consists of our SWAT 
team, the hazardous materials response team, the special agent 
bomb technicians, evidence response team, tactical medical 
program, weapons of mass destruction program, our rapid 
deployment team and the joint FBI/Department of Energy special 
search team.
    The NCRS is collocated with the JTTF to directly support 
their investigations and operations and to provide a direct 
link between these specialized teams and the 23 agencies 
assigned to the JTTF.
    The Washington field office is a full partner with all of 
the other responsible agencies in the National Capitol Region 
in the fight against terrorism in the herculean efforts to 
prepare for the unthinkable. Daily we work with all of the 
other agencies and are mutually supportive of each other. The 
efforts and the progress of this area serve as a shining 
example to the rest of the United States as to how this process 
should work.
    Due to the unique location within the Capitol of this great 
country, the Washington field office long ago became the leader 
in the fight in the war on terrorism and the cooperative 
efforts necessary to ensure the safety of the American people.
    Let me conclude by saying that the nature of the threat 
facing the National Capitol Region is unique in all of America. 
The FBI Washington field office takes its responsibility as a 
law enforcement agency, intelligence service and partner of 
first responders with the utmost sense of gravity and urgency. 
We value the partnerships with the professionals in the law 
enforcement and intelligence community that we have established 
over the years and continue to seek out ways to enhance those 
relationships.
    Let me again express my gratitude to you, Mr. Chairman, and 
the committee for your invitation, and I look forward to 
responding to any questions.
    Chairman Tom Davis. Thank you very much.
    [The prepared statement of Mr. Harp follows:]

    [GRAPHIC] [TIFF OMITTED] T7679.049
    
    [GRAPHIC] [TIFF OMITTED] T7679.050
    
    [GRAPHIC] [TIFF OMITTED] T7679.051
    
    [GRAPHIC] [TIFF OMITTED] T7679.052
    
    Chairman Tom Davis. Chief Chambers.
    Chief Chambers. I will abbreviate my oral testimony, sir. 
Mr. Chairman, and members of the committee, thank you for the 
opportunity to testify today on emergency preparedness in the 
Nation's Capital. Although I've been the chief of the U.S. Park 
Police for just 14 months, I retired from a police agency just 
inside the State of Maryland and am familiar with both the 
challenges and the many positive aspects of policing in this 
region.
    The U.S. Park Police's primary areas of responsibility are 
the National Park areas of Washington, DC, New York City and 
San Francisco, and we have arrest authority in any unit of the 
National Park's system. We also have provided law enforcement 
expertise in many different venues, including the Summer 
Olympics in Atlanta, GA, the Republican National Convention, at 
Independence National Historic Site and the Cuban Boat 
Flotilla.
    In the President's National Strategy for the Physical 
Protection of Critical Infrastructures and Key Assets, the 
Department of the Interior is the lead Federal Department with 
primary jurisdiction over national icons and monuments. To 
enhance our efforts, Secretary Norton recently requested that 
the Department of Homeland Security and the Department of 
Justice conduct an independent assessment of the National Mall 
and those areas around the White House where the U.S. Park 
Police patrol.
    This assessment is already underway, with the Department of 
Homeland Security and Department of Justice providing important 
feedback to the U.S. Park Police.
    When large events occur in our area, operations are often 
seamless between the myriad of local, State and Federal 
agencies involved. One of the best examples occurred in 
Washington, DC, last year on the Fourth of July.
    Nearly 1,200 officers from numerous agencies helped ensure 
a safe environment for the thousands of people who came 
downtown to celebrate America's independence.
    The Police Chief's subcommittee of the Washington, DC, Area 
Council of Governments meets monthly. Also on at least a weekly 
basis, area chiefs and other law enforcement leaders engage in 
conference calls to share the latest intelligence and 
operational information.
    Our officers sit side by side in a number of assignments 
including Joint Terrorism Task Forces, Department of Homeland 
Security details and the Metropolitan Police Department's Joint 
Operations Center.
    In the recent case involving a disgruntled farmer who drove 
his large farm tractor into Constitution Gardens, we were 
joined by a number of governmental and private organizations. 
Most closely involved with us was the Federal Bureau of 
Investigation and the Bureau of Alcohol, Tobacco and Firearms 
which played a key role in assessing the potential threat posed 
by this individual, the three vehicles he drove into the pond, 
and the explosives he claimed to possess.
    We also conferred with experts via conference call to 
receive their input on the explosive potential and related 
scenarios.
    Also closely involved was the U.S. Secret Service, whose 
members were on the scene to assist us within minutes of the 
event unfolding. The Metropolitan Police Department of 
Washington, DC, the Federal Protective Service and the U.S. 
Capitol Police also provided assistance.
    We appreciate the generous support of the District of 
Columbia's Emergency Management Agency, the Washington, DC, 
Fire Department, the American Red Cross and the D.C. National 
Guard, who also assisted us.
    The U.S. Park Police kept in constant communication with 
members of the press to provide valuable information in order 
to protect the public from potential harm. The Department of 
Homeland Security was in close communication with us, and Mr. 
Byrne, who you heard testify, conducted several telephone 
briefings every day with people involved or affected by this 
matter.
    Please allow me to take this opportunity to thank all these 
agencies for the support and expertise they provided to the 
U.S. Park Police during the tractor incident. They played an 
integral part in achieving a successful outcome that avoided 
the loss of property and more importantly avoided the loss of 
life.
    In the case of a major crisis resulting in a mass exodus 
from the city of Washington, it is useful to look at our role 
on September 11, 2001. Within minutes of the plane striking the 
Pentagon, members of our aviation unit flying the U.S. Park 
Police helicopter Eagle 1 were in the area over the crash site. 
Because of the heavy smoke, Reagan National Airport traffic 
controllers asked the Eagle crew to take control of the 
airspace over Washington while the situation was assessed. A 
second Park Police aviation team treated injured persons on the 
scene of the Pentagon and transported those who needed 
additional care to nearby hospitals.
    At the same time, our officers rerouted traffic to allow 
the greatest number of motorists to safely leave the city in 
the least amount of time, and we deployed our officers at 
national icons and around the White House.
    The U.S. Park Police is responsible for one bridge and five 
of the major routes into and out of the city. Officers assigned 
to those areas are directed to maintain their focus in those 
locations should a disaster occur so they can readily 
facilitate the rapid evacuation of motorists out of the city. 
The U.S. Park Police has three helicopters available for 
medical emergencies. These helicopters are staffed with 
certified pilots and paramedics. All three aircraft are capable 
of search and rescue missions, such as those we accomplished 
during the Air Florida crash and the many river rescues we 
perform each year.
    The U.S. Park Police is beginning its migration to digital 
narrow band radio systems in Washington, DC, New York and San 
Francisco. We're developing partnerships with other units of 
the National Park Service, as well as other Federal agencies to 
implement interoperable trunked radio systems that will allow 
for secure encrypted voice transmissions and cross-talk 
capabilities.
    We're also participating in the Federal Wireless 
Interoperability Project, which will allow for the exchange of 
data messages between mobile units of the U.S. Park Police, the 
Capitol Police, the Secret Service Uniformed Division, and the 
Metropolitan Police Department in Washington, DC.
    We're also participating in the Capital Wireless Integrated 
Network [CapWIN], that will allow for the exchange of data 
messaging between local, State and Federal public safety 
agencies within the Washington, DC, area.
    The United States Park Police is the oldest Federal 
uniformed law enforcement agency in the Nation. We date back to 
1791, when Congress created us at the request of President 
George Washington. We're very proud of the role the men and 
women of the U.S. Park Police have traditionally played and 
will continue to play in the protection of important icons and 
symbols of America's freedom and the lives of the hundreds of 
thousands of people who visit them, as well as in assisting in 
the protection of our President, Vice President, and other 
dignitaries.
    Mr. Chairman, this concludes my statement. I'll be happy to 
answer any questions you or other members of the committee may 
have, sir.
    Chairman Tom Davis. Thank you.
    [The prepared statement of Teresa Chambers follows:]

    [GRAPHIC] [TIFF OMITTED] T7679.053
    
    [GRAPHIC] [TIFF OMITTED] T7679.054
    
    [GRAPHIC] [TIFF OMITTED] T7679.055
    
    [GRAPHIC] [TIFF OMITTED] T7679.056
    
    [GRAPHIC] [TIFF OMITTED] T7679.057
    
    [GRAPHIC] [TIFF OMITTED] T7679.058
    
    [GRAPHIC] [TIFF OMITTED] T7679.059
    
    [GRAPHIC] [TIFF OMITTED] T7679.060
    
    Chairman Tom Davis. Chief Ramsey, thanks for being with us.
    Chief Ramsey. Thank you, Mr. Chairman, other members of the 
committee, staff and guests. Thank you for the opportunity to 
update you on the state of emergency preparedness in the 
District of Columbia from the perspective of local law 
enforcement. Through the leadership and efforts of many people, 
including the President, the Congress, members of this 
committee, Mayor Williams and his administration, and 
especially our police officers, I feel very confident today in 
stating that law enforcement in our region is better prepared 
than ever before for a large scale emergency, whether that 
emergency be a terrorist attack, a natural disaster or 
something else.
    Law enforcement in our region recognizes that the stakes 
are very high. We understand and appreciate the need for 
cooperation, coordination and information sharing, and most of 
all, we have pulled together as never before around a common 
goal and mission, securing the homeland by protecting our 
Nation's Capital.
    That is not to suggest that we have completed our work in 
this area. We have not. This whole arena continues to change 
very rapidly, and we in law enforcement need to remain vigilant 
and flexible in our response. But I am confident that we have 
built a solid foundation among the law enforcement community in 
the D.C. area, a foundation of trust, cooperation and 
partnership that will serve us well for years to come.
    My testimony today covers law enforcement developments in 
five critical areas. My written statement provides more 
details. I'll just cover the highlights here.
    The first area is cooperation among agencies. I know that 
police chiefs in other parts of the country have, at times, 
expressed frustration with their local FBI field offices and 
other Federal agencies, but thanks to the leadership of 
Assistant Director Harp and other Federal officials in our 
region, our experience here in D.C. has been just the opposite. 
In our region, communication and cooperation are taking place 
at the executive level, at the senior management level and at 
the operational level. Our department is actively involved in 
both the Joint Terrorism Task Force and the Antiterrorism Task 
Force.
    The MPD's Joint Operations Command Center continues to 
serve as a critical communications and operational hub for law 
enforcement during periods of heightened alert or for major 
events such as the antiwar and antiglobalization protests 
expected this weekend.
    And I'm in regular contact with Assistant Director Harp and 
receive timely information and support from the Washington 
field office.
    In addition to the Federal and local cooperation, our 
region continues to benefit from strong local coordination, 
including regular conference calls among the region's police 
chiefs on intelligence and preparedness issues. In addition, 
the MPD now holds weekly conference calls among intelligence 
coordinators in six other major cities, and I have detailed one 
of our detectives to the New York City's Police Department 
antiterrorism intelligence unit for a 90-day pilot project.
    Finally, all of the chiefs in our region are working with 
the Council of Governments, and now the new homeland security 
coordinator for the Washington region, to ensure our individual 
plans are coordinated regionally.
    A second and related area involves the coordination between 
government and private sector. The District's emergency 
response plan is our overall road map for preparing for and 
responding to any emergency. Part of the plan's strength is 
that it defines specific roles and responsibilities, and it 
recognizes the importance of the private sector in emergency 
preparedness. The MPD has actively participated in a series of 
neighborhood-based community meetings, organized by D.C.'s 
Emergency Management Agency.
    Our department has also reached out to the business 
community to provide them with specialized information on 
crisis planning for their facilities, and working with the 
local news media on how to get accurate and timely information 
out to the community during an emergency.
    A third critical area involves our level of response 
preparedness. Over the past 18 months the Metropolitan Police 
Department has made tremendous strides in our overall level of 
preparedness, thanks in large part to the $16.8 million 
provided by Congress. These funds have allowed us to provide 
basic warm zone personal protection equipment to every sworn 
member of the Department, something that very few, if any, 
major city police departments have been able to do.
    In addition, we have equipped and trained 141 officers who 
can operate in actual hot zones as part of our new Special 
Threat Action Teams [STAT].
    In terms of training, all of our sworn members have 
received the basic 8-hour course in weapons of mass 
destruction. Our staff members have received more specialized 
training in hazardous materials, radiological operations and 
self-contained breathing apparatus, and members of the MPD 
command staff including myself have been through a variety of 
WMD courses so that we can be more effective and informed 
leaders during an emergency.
    Another area of major concern for people throughout the 
region is transportation and traffic management. While the 
District Department of Transportation is the lead agency, the 
MPD continues to assist on a variety of implementation issues. 
For example, we have identified approximately 70 key locations 
that the Metropolitan Police Department is prepared to staff 
for traffic control purposes during an emergency. Most of these 
intersections are along the evacuation routes that DDOT has 
identified and marked. While our ability to move traffic safely 
through an emergency is better today than it was on September 
11th, I think that all of us need to be realistic about 
traffic.
    As the recent incident in Constitution Gardens illustrated, 
if major arteries need to be closed when large numbers of 
motorists are trying to enter or exit the city at the same 
time, traffic is going to be backed up.
    I understand that during an emergency, most people's 
instincts will tell them to get in their vehicles and try to 
leave the city, but depending on the situation, traveling by 
car could actually put people at greater risk, especially if 
they leave a safe area and drive toward a hot or warm zone.
    There are very few scenarios in which the entire city would 
have to be evacuated at the same time. A more likely scenario 
would be the need to evacuate people within a defined 
geographic area while having the majority shelter in place. The 
bottom line from a public safety perspective is that we don't 
want to program people to automatically get into their vehicles 
at the first indication of an emergency. It's important that 
our evacuation routes be posted and staffed during an 
emergency, but it's even more important for individuals to be 
informed and to remain calm and flexible in their response.
    The fifth and final area I want to touch on is especially 
important here in the D.C. region. With so many Federal, 
regional and local agencies that may be involved in an 
emergency response, and that is telecommunications and 
information sharing. September 11th illustrated the challenges 
for different agencies in communicating with one another via 
radios. Over the last several months, a number of steps have 
been taken to address the interoperability issue here in D.C., 
but we haven't yet solved the problem.
    Recent congressional funding has allowed the MPD to launch 
a major upgrade of our radio communications system, including 
the conversion of our radio system from analog to digital to 
enhance interoperability with other agencies. In the meantime, 
our Department has procured a small number of 800 megahertz 
radios that we could use in an emergency to communicate with 
fire, EMS and other agencies.
    In addition, our Department has begun a pilot project with 
the U.S. Secret Service Uniformed Division, the U.S. Capitol 
Police, and the U.S. Park Police to share information more 
easily and more securely over our agencies in-car computers, 
and the MPD continues to participate in the regional CapWIN 
Project, a Federal effort that is designed to boost cross-
agency communications and information sharing in emergency 
situations.
    I thank you again for the opportunity to present this 
testimony. I'm very proud of our police officers and civilian 
employees for their hard work and professionalism in enhancing 
our level of preparedness, but we have only built the 
foundation for the future. We've not completed the entire 
structure. Maintaining what we have in place now and building 
for the future, particularly in the critical area of voice and 
data communications, will be critical and potentially costly. 
We will need additional resources to protect the investments 
we've already made while continuing to update and expand our 
equipment, training and technology.
    Our Department is very appreciative of the tremendous 
support we've received from Congress in helping us get to where 
we are today, and we welcome and look forward to working with 
the committee in ensuring that we remain prepared for what the 
future may bring. Thank you very much.
    [The prepared statement of Charles Ramsey follows:]

    [GRAPHIC] [TIFF OMITTED] T7679.061
    
    [GRAPHIC] [TIFF OMITTED] T7679.062
    
    [GRAPHIC] [TIFF OMITTED] T7679.063
    
    [GRAPHIC] [TIFF OMITTED] T7679.064
    
    [GRAPHIC] [TIFF OMITTED] T7679.065
    
    [GRAPHIC] [TIFF OMITTED] T7679.066
    
    Chairman Tom Davis. I thank all of you, and we appreciate 
the job you're doing, and the troops under you are doing every 
day to bring safety to our region.
    Let me go back to where we were with the first panel, 
though, and that is the situations like we had on March 17th, 
18th, 19th timeframe, where you have an emergency situation, 
dealing with it and all the factors that are taken into account 
as we walk through.
    I think in retrospect, we go back and we are redoing that 
incident with Mr.--well, we call him ``tractor man'' would you 
have handled it differently?
    Ms. Chambers, would you have handed it differently? You 
were the group in charge.
    Chief Chambers. I was, sir, and we worked in collaboration 
with Mr. Harp sitting next to me, who was the lead man at the 
command post with us----
    Chairman Tom Davis. If we had to do it over again, any 
lessons learned?
    Chief Chambers. The first thing that is happening now that 
will help me in the future is an afteraction critique, first 
within my own agency and then with the other agencies who were 
involved. We do that after every major event. And, sir, I'm 
sure that there will be lessons learned. There will be things 
that we did correctly and we will make certain occur in the 
future, and there will be things that we could do differently. 
I don't know at this point, Mr. Chairman, what those will be. 
The first critique happens later this week, and then others 
will happen over the subsequent weeks.
    Chairman Tom Davis. Would you be good enough to share that 
with the committee once you get it, or is that privileged?
    Chief Chambers. Sir, the actual report we prepare is 
privileged, but I will be able to give you a condensed version. 
I'd be glad to do that, sir.
    Chairman Tom Davis. I'm looking at National Park Service 
director's Order No. 9, the law enforcement program. This 
directive permits the use of intermediate weapons approved by 
the Park Service such as electronic restraint devices, tear 
gas, grenades and beanbag grounds to restrain or control 
violent, threatening or restive behavior.
    On the evening of Monday, March 17th, the President 
addressed the Nation and gave 48 hours notice before declaring 
war on Iraq. Simultaneously, the Nation's threat alert was 
raised to orange. Why wasn't alternatives followed with perhaps 
tear gas or whatever? As it turns out, and I just say in 
retrospect, the only dangerous item this guy had was tobacco at 
the end of the day. Why weren't these other items--or the other 
alternatives, were they looked at, were they reviewed? Why 
wouldn't tear gas have been appropriate in this case?
    Chief Chambers. Sir, a number of options were looked at, 
including some of those that you mentioned, and at one point 
tear gas was deployed. It had no effect other than to cause the 
gentleman to go to the far end of the pond where he retreated 
and held on for several more hours toward the end.
    For each option that we looked at, there were inherent 
risks, and we had to weigh that against the benefit. We had a 
gentleman who threatened from the very moment that this began 
to detonate an explosive. He had a large enclosed trailer that 
caused great concern to ATF, the experts to whom we looked for 
advice on what the potential blast factor was and what the 
impact would be to the lives of people that were in that inner 
perimeter. We knew that anything that would check and we had to 
consider the real possibility that he could hit a trigger 
switch or that he would have a switch go off should he be 
incapacitated, and early in the stages, the risk was far too 
great to take that type of action. As he changed toward the 
end, we did deploy the tear gas. Of course, as I mentioned, it 
had no positive effect, sir.
    Chairman Tom Davis. Chief Ramsey, the Raleigh News and 
Observer published their online version March 18th, and you're 
quoted as saying, ``right now, this is the only game in town, 
and you can afford to wait. If there were multiple events going 
on, we'd move him.''
    What would you have done if there were other events in town 
to have brought this to closure?
    Chief Ramsey. It would depend, sir, on the nature of the 
events that were taking place. If his risk to the public at 
large had gotten to the point where consideration for lethal 
force became an issue, then certainly that would be considered. 
Fortunately, we didn't run across that particular scenario, 
although if it had, we had people in position that could have 
taken that kind of action.
    You have to deal with these events as they unfold. If we 
can contain it, which in this case they were able to contain 
it. He was in an area where he was isolated from the public at 
large in the middle of a pond in a mall. So there was no direct 
threat to others other than some of the law enforcement people 
around, the decision was made to contain, and I don't disagree 
with that decision. But had the situation changed, I'm certain 
that other actions would have been brought on the table and may 
have had to have been actually implemented.
    Chairman Tom Davis. There were three rush hours that were 
held up. I can understand one going through at two. I gather 
from your statement it could have been 20 as long as it was 
brought to a peaceful conclusion, that there is really no limit 
in terms of how long the public at large would be 
inconvenienced, as long as it was brought to a successful 
conclusion. Is that basically as I read you?
    Chief Chambers. Sir, I don't have the crystal ball to know 
how many rush hours it could have been. I did consider that. I 
was very concerned about the inconvenience to motorists and to 
residents of the city. I was more concerned about their safety. 
Certainly I didn't want any injury or death to any passers-by. 
It is important, though, to know that from the very----
    Chairman Tom Davis. You cordoned, what--a 6- to 8-block 
area was cordoned off. Right?
    Chief Chambers. Sir, I don't know the exact dimensions. I 
would have to get back to the operational plans and look at 
that. I know that as the days went on, we actually opened up 
intersections to help with the flow of traffic. We were never 
at a standstill, Mr. Chairman.
    We were moving forward. We knew that we were getting closer 
to resolution, and those were the things that I couldn't share 
with the public at that time, because we knew that the 
gentleman was also listening carefully to the reports in the 
media. And so never did I give up hope that we weren't moving 
closer and closer. In fact, when I spoke to Mr. Moran at an 
Appropriations Committee hearing on the final day, I was 
confident enough to tell him that I knew that we were much 
closer than we had ever been, and certainly within an hour or 
two of that time, the situation had been resolved. And so it 
was not going to go on forever, Mr. Chairman.
    Chairman Tom Davis. During this period, the Metropolitan 
Police Department had 14,057 calls, 4,993 police dispatchers 
during that time, and during the rush hours, ambulances 
couldn't get through. Police couldn't. I mean, it was absolute 
gridlock in places from Georgetown, downtown Capitol Hill, 
anywhere around here. So innocent people who were obeying the 
law were put in jeopardy during this time period, too. How is 
that factored into the decisionmaking?
    Chief Ramsey. Well, again, first of all, let me say that--
--
    Chairman Tom Davis. Where their rights again and their 
convenience and their safety, how are they weighed against the 
other?
    Chief Ramsey. I mean, you take everything into 
consideration. One of the positive things around this, we did 
have a traffic plan and had traffic rerouted around the area. 
As this thing unfolded, people were more aware, and----
    Chairman Tom Davis. Chief, let me just say. You reroute the 
traffic around the area, but it clogs everything else up, and I 
think that's what you need to understand. You couldn't get down 
the GW Parkway. You couldn't get through Georgetown. And 
ambulances, I saw an ambulance trying to get through in 
Georgetown, and it couldn't--literally there was no way to get 
through. It was blocked up.
    Chief Ramsey. Yes, sir. That is a consequence of that. I 
would say that what we're about to have this weekend with the 
IMF and World Bank will probably do far more damage to our 
traffic situation than tractor man did, and yet we have those 
kinds of meetings and protests and things of that nature that 
cause us problems on a fairly consistent and regular basis, and 
we have to work around them the best we can. We didn't create 
the situation. We just tried to resolve it the best we could, 
taking into consideration----
    Chairman Tom Davis. This is one guy, three rush hours.
    Chief Ramsey. Well, sir, maybe I'm at a loss here, because 
I don't believe in killing people to move traffic.
    Chairman Tom Davis. Neither do I.
    Chief Ramsey. Lethal force is always an option, but it is a 
last resort.
    Chairman Tom Davis. Nobody is mentioning lethal force.
    Chief Ramsey. When you're at the scene and you see what 
options are available to you and a lot of the lethal technology 
is only good in a certain range----
    Chairman Tom Davis. Were there certain technologies that 
were available that we might give you the resources to deploy 
in----
    Chief Ramsey. I'd be glad to look at that, sir, and have 
people that are experts in weaponry find out----
    Chairman Tom Davis. After you have looked at it, have you 
gone out and said, gee, what else can we do, what are other 
places doing around the world in this? Remember, this was an 
orange alert.
    Chief Ramsey. I do realize it was an orange alert, sir. I'm 
very sensitive to the fact that it was an orange alert. But we 
also have a deranged man and a situation where he's claiming to 
have explosives. He could very well have access to firearms. 
There's all kind of things going on at the time. We're trying 
to resolve it the best we can, and in looking back at 
situations, one can always say that, well, it was really no 
threat, we could have stormed the tractor. But we're not going 
to put our officers' lives at risk unnecessarily either. So 
it's a very difficult situation. Fortunately, there was no loss 
of life, and we were able to move on from it.
    Mr. Harp. Excuse me, Mr. Chairman. May I respond to that?
    Chairman Tom Davis. Sure.
    Mr. Harp. I spent probably more time personally actually on 
the scene than Chief Chambers or Chief Ramsey, and at the 
outset, he did threaten with a bomb, and according to ATF and 
our people, the blast radius would have been somewhere between 
500 to 1,500 feet.
    Now, I think that dictated somewhat the closure of 
Constitution and some of those related problems. But focused on 
the interperimeter and what was going on, as long as the 
gentleman was isolated on the tractor in the middle of the 
pond, he was only a threat to himself. Our primary concern is 
the private citizen's safety, the safety of our officers, as 
well as the safety of Mr. Watson, I believe his name was.
    Chairman Tom Davis. Well, I mean, I'm glad you're concerned 
about Mr. Watson's safety, but--let me--you'll get a chance. 
This is just the police department's emergency calls. We 
haven't yet--we're still tallying the number of emergency calls 
that came in on September 11th for fire and the rest, and this 
backed out into the Virginia suburbs. And in Maryland. I mean, 
this was everywhere, and all I'm saying is, we want to learn a 
lesson from this. We don't want to harp on it. I understand 
everything that went into this decision, and you and I have had 
this discussion, and I appreciate it. You were going by the 
book as it was written at the time, but we need a new book.
    Mr. Harp. Well, I understand that, and I agree there should 
be some type of intermediate step. But during--starting--right 
after the immediate response, we developed an investigative 
strategy during the first day and a half, from Monday 
afternoon, Monday night, Tuesday morning, Tuesday afternoon. We 
obtained and executed, I believe, four search warrants down in 
North Carolina. We're trying to develop the information and 
assess, first of all, does the fellow have the capability to do 
what he's threatening to do? Does he have all that--all of 
those issues?
    We even located the girlfriend down in jail in Miami, FL to 
interview her. We contacted the fertilizer distributors in the 
southern county area contiguous to D.C. We went to the 
licensing and regulating entity down in the State of North 
Carolina to see what his purchases were. There was an issue 
about the possibility of a 45 caliber side arm, and as long as 
he was out in that pond, we were not going to--he was, like I 
said, the only threat was to himself. If he approached the lip 
of the pond, we were going to employ the gas, and if that was 
not successful, then we were going to escalate it to what was 
necessary.
    Simultaneous to that, we developed a wiretap, and on an 
emergency basis--this all takes time to do this. So we were 
monitoring his calls. After the first day and a half, we were 
starting to get telephone calls that he was intending to 
surrender.
    Now, if we would have taken proactive steps in the middle 
of this investigation in the standoff, that would have 
precipitated a reaction by him that would have caused him to 
react in a way we did not expect and then to have to employ 
deadly force after we already have those conversations, I can 
guarantee the issue in this hearing would be different. I dug 
up the newspaper articles following the 1982 standoff at the 
memorial, I think with a Mr. Buyers or Meyers, whatever his 
name was, and once he started down that hill, they shot at him 
to disable his truck, I believe. The ricochet killed the 
gentleman.
    There was a 6-week grand jury investigation following that, 
and I will just tell you right now, my experience, I am 
familiar with both Ruby Ridge, and I am familiar with Waco, and 
I have experienced a couple of these incidents in my career, 
and the alternative very difficult. We have an agent still 
paying the price as a result of a legal shooting employing 
deadly force after----
    Chairman Tom Davis. You're afraid of getting sued. Is 
that----
    Mr. Harp. Not in the least. That gentleman would have 
driven that tractor off--out of that pond and approached the 
lip, we were going to use the gas, and if it went further, I 
was prepared and we were prepared to exercise deadly force if 
that was required.
    We could not even sneak up to him, because the tractor in 
and of itself was a deadly weapon. That water, 3 to 5 feet of 
water, was no impediment to that tractor.
    Chairman Tom Davis. He had a permit. Is that--at one point. 
Am I right, Chief?
    Chief Chambers. He had a permit but not for the 
Constitution Gardens area. It was for a static display, being 
his tractor, up at the Washington Monument. He had been there 
in prior years as well.
    Mr. Harp. May I add one comment?
    Chairman Tom Davis. Yes.
    Mr. Harp. Shortly after Director Mueller called me over and 
got some of the senior executives at headquarters and asked the 
very same question about intermediate steps, we've already 
begun looking at less than lethal to be able to use in those 
type of situations, and we will employ additional tactical 
expertise on scene, but----
    Chairman Tom Davis. I think we have to. I mean, or we see 
the next one and the next one and the next one, and we have 
people say, well, we're going to protect this guy, we're afraid 
of the repercussions on agents, and we want to protect the 
citizens, and one person ties up the town.
    Mr. Harp. I agree, but when you look at the nature of the 
threat on the front end----
    Chairman Tom Davis. I understand how you react to that. 
Look, I understand that.
    Mr. Harp. In 47 hours--and I understand the traffic issue 
and----
    Chairman Tom Davis. I just don't want it to happen. I mean, 
we can't afford to have these kind of things recurring and 
recurring and recurring. I remember the Woodrow Wilson Bridge 
incident where they didn't even prosecute the guy, and it 
happened again after that. And Chief Ramsey, the great 
frustration you heard from Mr. Wolf earlier, and we're hearing 
from Members and staff is I know you have some very tough 
situations, bomb threats in tunnels. We've talked about that. 
You know, but we have to have a strategy to try to minimize the 
impact on traffic as well and make that a consideration and a 
factor, if nothing else, when there's an accident, get an 
officer out on the scene to move people around as quickly as 
you can there and at other key assets.
    Three hours getting in town for one of our--that's--you 
know, it basically holds up the mechanisms of government, and I 
know you get some really tough situations, but we just want to 
work with you to try to--as Mr. Wolf had suggested, having tow 
trucks available quickly. Yes, you want to get all the facts 
about an accident, but frankly, in my opinion, the facts of 
that accident in terms of future proceedings in court are 
minimal compared to holding up, you know, 100,000 people trying 
to get into the city, holding up the workings of government and 
the like. And if we can just work to try to improve on this, 
every incident is more difficult.
    Chief Ramsey. Yes, sir. I don't disagree. I don't know if 
you're referring to yesterday's accident on the 14th Street 
Bridge. And I don't know if that was a reference to that or 
not. I think it was mentioned earlier. But just as a point of 
information, that accident occurred at 7 a.m. It was a five-car 
accident. Three cars had to be towed. One pregnant woman had to 
be taken by ambulance to a hospital. As a result of that, it 
did shut down one lane. Three lanes we left open, but it did 
cause a tremendous traffic jam, and unfortunately when those 
kinds of accidents occur, there's going to be a traffic tie-up. 
Whenever it's a property damage accident, then obviously 
getting those vehicles off the roadway as quickly as possible 
so that traffic can flow and even in personal injuries, that's 
something that's always the goal.
    I know that based on what we heard earlier, our deputy 
mayor is already looking at a proposal to perhaps take a look 
at requesting some funding for additional cranes and other 
types of resources to perhaps be able to position them in a way 
where they're right by the bridges and be able to snatch it off 
the bridge very, very quickly.
    Chairman Tom Davis. I understand yesterday that----
    Chief Ramsey. And that's the sort of thing that I think 
you're looking for.
    Chairman Tom Davis. It was an hour and 15 minutes before 
the trucks came to tow yesterday, and during that time, it's--
it makes a----
    Chief Ramsey. It was a total of an hour and 15, of what I 
have. 7 to 8:15 a.m. But we also had an ambulance run because 
one woman was injured, and we had three cars that needed to be 
towed. So it was cleared at 8:15 a.m. But, again, it did tie up 
traffic. It doesn't take much to tie it up around here.
    Chairman Tom Davis. Again, I'm hearing increasing 
frustration, and not just from commuters, but holding up 
government at a time with orange alerts and everything else, 
that we need to rewrite the book. So, that's why, Chief 
Chambers, as you look at what we might have done different, we 
want to work with you and hear from you so that when it happens 
again, we're not tied up three or four or five rush hours, and 
no one knows how many it might have been, as we're waiting for 
this guy. We have to have additional strategies, and if it 
takes additional equipment, that's pretty cheap, the price, 
whatever it is.
    Mr. Van Hollen.
    Mr. Van Hollen. Thank you. Thank you, Mr. Chairman. I'm 
sure you'll hear from all Members who are here right now all 
from the Washington region about traffic frustration in various 
degrees. God knows one thing that did not change between the 
time I moved from the State legislature in Annapolis where I 
was for the last 12 years to Washington, is even though that's 
five times as far, it takes me just as long if I'm driving into 
town. So there are lots of issues and lots of issues we have to 
deal with in the Transportation Committee, obviously to resolve 
our traffic problems as a region.
    But that is one component, obviously, of the bigger issue 
that we're here about, which is readiness with respect to a 
terrorist attack, and it's difficult with the bells going off, 
and all the votes to really dig into these issues. So I hope, 
Mr. Chairman, we'll have a further opportunity as we go to 
discuss the medical preparedness in the region, issues of the 
real preparedness of first responders. There are a whole host 
of questions you don't have an opportunity to get into in this 
limited time.
    But there is one issue that is sort of at the intersection, 
of course, of traffic issues and a terrorist attack, for 
example, like a chemical attack or some other kind of attack, 
and that is the question of evacuation. And Chief Ramsey, you 
raised a very good point that others have made as well in 
earlier panels, which is in the event of an attack like a 
chemical attack, we don't necessarily want everybody getting on 
the roads and getting on the Metros.
    It may be that people are much safer staying in place or 
going underground, and my question is what kind of information 
system do you have for gathering the data, assessing the threat 
and letting the public know--I mean, the natural instinct of 
people is going to be to want to get out of town, if not to get 
away from an attack, to go see their families in the suburbs.
    What kind of information systems do you have for 
identifying the location of the attack, if it's a chemical 
attack, what the direction of the plume, for example, is, and 
how quickly can you do that, and how then do you communicate to 
the public whether they should be getting out of town, because 
they may be in the direction of a plume in the case of a 
chemical attack, or whether they should stay put. Have you 
addressed those kind of issues?
    Chief Ramsey. Yes, sir. Should there be a situation where 
we suspect a chemical attack of some kind, the Joint Terrorism 
Task Force responds to these scenes automatically. So does our 
Fire, EMS and HAZMAT unit that will do a quick assessment to 
find out what it is that we are up against.
    There is software that will give you information relative 
to any plumes that would develop as a result of that depending 
on the substance, wind direction, temperature, all those kinds 
of things to let you know what the area is that perhaps you 
need to evacuate if that was the situation.
    The media is the quickest way of getting information out, 
both radio and television, the Internet. I mean, every means 
available to us to get information out to the public would be 
used, but the quickest way is obviously through the media, and 
passing along that information to get people not to go toward 
an area that could be contaminated, but also to get them out of 
an area that we may need to seal off, whatever the size of that 
area might be.
    So we do have the technology in terms of software that can 
give us the radius that would be needed to clear, and we also 
have people that respond very quickly to these scenes to try to 
quickly assess their--there is other technology that I 
shouldn't talk about in an open forum that is available in the 
city as well to quickly detect those kinds of releases.
    So I hope I answered your----
    Mr. Van Hollen. Yeah. Who's responsible in this effort 
between local and State and Federal officials? Who's 
responsible for getting that information out across the media 
outlets? I mean, is that dependent on the situation, or do you 
have a plan where there's an evaluation made, for example, at 
the Federal level, and that information is then communicated to 
the--I mean, I assume the National Weather Service, for 
example, has input with respect to the direction of any plume 
in the event of a chemical--how does that information get 
coordinated, and who is responsible for disseminating that 
information to the public as quickly as possible?
    Chief Ramsey. Well, actually, at the local level, our 
department of Emergency Management, EMA, coordinates all those 
kinds of things for us. Peter La Porte is here with us now. The 
software that I'm talking about that we use for the direction 
of the wind and all that, that's plugged in directly to the 
National Weather Service, so you get real-time information 
about wind speed, direction, temperature, all those kinds of 
things that would impact the affected area.
    So that is done fairly quickly, but it is the local 
government that would be primarily responsible for getting that 
information out. But to determine what that information is that 
needs to get out, of course we rely on Federal assistance as 
well as our own fire, EMS and other specialists that are there 
to tell us what it is we're up against.
    Mr. Van Hollen. What is your assessment of the level of--
this is just a general--what is your assessment of the level of 
preparedness in the Washington region to a chemical attack, a 
low-level--or a nuclear explosion that took place? I mean, are 
we ready? If we're not ready, what additional measures do we 
need to take?
    Chief Ramsey. Well, I think we're ready, but, again, that's 
all relative. If you have a nuclear device explode, you're 
going to have loss of life. If you have a release of a chemical 
agent, depending on what that agent is, you can have some loss 
of life. But do we have the equipment we need to be able to 
respond and work in that environment? Yes. Do we have the 
ability to be able to detect as quickly as possible what that 
is so we can save as many people as possible? Yes. But being 
prepared doesn't mean you have zero loss of life. I mean, there 
is a price that is paid if we have a situation like this, and 
we can only hope to minimize any injury to the public at large. 
But we have been given the resources. We have the training. We 
have the communication and the coordination in place that I 
think makes us as prepared as any region, if not more prepared 
than any other region in the country.
    Mr. Van Hollen. Now, clearly, clearly there would be 
terrible loss of life if any of those, especially a nuclear 
attack happened. My question related to our ability to respond. 
And with respect to the deterrence and prevention aspect, what 
has been the level of cooperation between--to the regional 
governments and the Federal Government with respect to them 
providing you with information about the nature of the threat? 
Have you felt that information has been communicated quickly 
and accurately to you with--the full amount of information that 
you need that they're getting, whether it's getting down to 
you?
    Chief Ramsey. Yes, sir. I'm very, very pleased. I have a 
clearance, and I'm privy to information that comes in as it 
affects Washington, DC. Mr. Harp mentioned earlier that we have 
regular conference calls. We have a standard weekly conference 
call that we have, and we have it daily when we need to if 
there's a specific threat to Washington, and that's all the 
regional law enforcement agencies. We have regular meetings 
there at the Washington field office. In fact, there is one 
today that took place that covered some intelligence 
information. I've had other briefings as well. I couldn't be 
happier with the amount of information that comes to me as it 
relates to threats against Washington, DC, and I know that 
there's been some, you know, discussion on the part of some 
chiefs that weren't in the same position that I'm in, 
unfortunately, but as far as Washington goes, the cooperation 
and coordination of not only the FBI, but I feel that way about 
the Secret Service as well and the other Federal agencies that 
we have regular contact with.
    Chairman Tom Davis. Thank you very much.
    Mrs. Davis.
    Mrs. Davis of Virginia. Thank you, Mr. Chairman. Director 
Harp, Quantico Marine Corps base is located in Prince Williams 
County, part of it in Stafford. As you know, on that facility 
is the FBI Academy and the DEA Academy, and we have a lot of 
folks there. It's dissected by Interstate 95, and my question 
is have adequate measures been taken, in your opinion, to make 
sure that facility is protected and that the people there know 
what to do in case of a terrorist attack?
    Mr. Harp. I believe so. The continuity of operations plan 
has been developed for Quantico. In an attempt to shorten my 
statement, I did skip over the specific mention of the Quantico 
academy and the Quantico Marine Base, but they are included as 
well in our deliberations and practice and training and all 
those considerations.
    Mrs. Davis of Virginia. You know, I travel that corridor 
every Monday and Friday going back and forth to home, and I 
will tell you that the bottleneck, when you get off of where 
the HOV lanes are, you get right into that Quantico/Triangle 
area, and that is my concern that I keep talking about today. 
If we had to have a mass exodus out of D.C. because of 
something like we had on September 11th, even getting out of 
D.C. on September 11th was next to impossible for most of us, 
but I just have got a real concern about what would happen down 
in that corridor, and I certainly hope everyone is going to 
keep that in mind----
    Mr. Harp. Yes.
    Mrs. Davis of Virginia [continuing]. When you think of our 
evacuation plans, that you keep that in mind that it really 
bottlenecks there now without a terrorist attack.
    Mr. Harp. We are cognizant of those threats, and we've 
attempted to address them in our planning.
    Mrs. Davis of Virginia. Thank you, sir. Thank you, Mr. 
Chairman.
    Chairman Tom Davis. Thank you very much.
    Mr. Ruppersberger.
    Mr. Ruppersberger. Yeah. Let's get back a little bit to the 
issue that happened in the park. You know, I really think that 
you as law enforcement are there to respond, and you do a good 
job, and you have the techniques, but you just don't have the 
resources. And I understand the next panel is going to be more 
about transportation. But I think whenever you affect someone's 
everyday pattern of life, especially at a place like 
Washington, DC, where we all come to work, it causes a lot of 
frustration, and as elected officials you get a lot of 
complaints and phone calls. But if we're really going to take 
this seriously, first we have to come up with a plan that will 
work and second, we have to find a way to fund it.
    And I think a lot of what we're talking about is maybe a 
flexible transportation plan that is going to cost billions of 
dollars, but really studies some of the best transportation 
systems in the world. And if we're going to really make our 
Nation's Capital a place where we have incidents--and we always 
will--and we're going to be able to move traffic in situations 
like this or just an automobile accident, we're going to have 
to have a plan, we're going to have to have somebody in 
leadership at the top who can make decisions to divert roads 
and close roads to make sure we get traffic patterns moving, 
including cameras almost as a 24-hour, 7-day-a-week situation, 
but it's going to cost a lot of money.
    Now, the possible good news if we're willing to undertake 
that, is that every elected official who works in the Capital 
somehow lives near this area, one way or another, and 
understand that this is the Nation's Capital. And if you look 
at this Washington, DC, from at least my perspective, it may 
not be your opinion, I think we have a deteriorating 
infrastructure that has to be dealt with. And if you don't take 
care of the basics first, things start to deteriorate. Roads, 
potholes and situations. And it's not Mayor Williams. He's 
doing the best he can, but he needs more resources. He needs 
people to live in the district who can pay the taxes to help 
pay for these things.
    So I'm looking forward to the next panel, because I think 
really the issue, you responded, you tried to do the best you 
could. You created your perimeter because you want to save 
lives and you want to save the life also of your police 
officers, plus your citizens. But there needs to be some 
flexibility and technology. It is there, but we have to be 
willing to pay for it. And thank goodness you have Chairman 
Davis here who lives in the area, and what I understand, likes 
to get things done. Maybe we can really take this to another 
level.
    Getting back to some of the issues on homeland security, I 
think WMATA is something that we have to deal with, with 
terrorism. Terrorism is a lot different than other crimes, so 
to speak, and the terrorists want to create a situation that 
will have impact in the news media. I don't know who can answer 
the question; but do we have the resources, the sensors, the 
radiation sensors, the chemical sensors that we can help to 
discover if something occurs or try to stop things before it 
occurs? Where are we with respect to that, or are we 
underfunded and we don't have those resources? And, by the way, 
the things I am talking are chemical sensors, biological 
sensors. If you have a biological or chemical, you can have a 
decontamination right there or close by like you would have a 
fire hydrant. Anything of that nature?
    Mr. Harp. I think some of that could be answered by the 
next panel. With respect to our preparations, our National 
Capital Response Squad does have those assets. We are working 
very closely with DOE on the anthrax investigation. We have 
employed all of the national labs. We have had eight specific 
conferences in my office deliberating on the anthrax threat and 
the investigation. We have done, I think the best we can within 
our ability, our Hazardous Materials Response Unit and our 
Weapons of Mass Destruction Unit at headquarters. Both are a 
national asset and they address those concerns.
    We did employ them during the tractor incident. We could 
always use more. I understand that--and, you know, we had never 
been attacked prior to September 11th, but since then we have 
had not only the Pentagon and the Trade Center, but we have had 
anthrax, we have had a host of hoax letters and our personnel 
from the JTTF and the Capital Response Squad deploy to what are 
possible hot scenes. So, yes, we could use more resources.
    Mr. Ruppersberger. Chief Ramsey, how many people in your 
organization really do you assign to work narcotics?
    Chief Ramsey. That I assign to work on narcotics?
    Mr. Ruppersberger. Drug enforcement.
    Chief Ramsey. I can get you exact numbers as to how large 
NSID is. Close to 100.
    Mr. Ruppersberger. We had testimony yesterday that because 
of the homeland security and the terrorist threat, that there 
are a lot of resources that are being taken out of the 
narcotics enforcement, which is still our biggest problem in 
the United States from a crime point of view. Do you agree with 
that?
    Chief Ramsey. It is a large problem, yes, sir.
    Mr. Ruppersberger. Are you having problems because of 
resources you are getting and putting into homeland security, 
taking away from areas, especially narcotics.
    Chief Ramsey. Not necessarily narcotics, but neighborhood 
patrols and the narcotic enforcement at the District level 
suffers as a result of that; not necessarily just the narcotics 
section, but the officers in the districts that work on local 
narcotic problems. Now, as a good example, with the IMF World 
Bank coming up and code orange, and those kinds of things, when 
we have to take resources to start dealing with some of those 
threats, we pull out of the neighborhoods to an extent, 
although we do everything we can to make sure our numbers stay 
up in the neighborhoods, but it strains us tremendously.
    Mr. Ruppersberger. May I make one more comment? Since 
September 11th, we know that things have changed. But I think 
there is no question that from a terrorist point of view that 
Washington, DC, and probably the Nation's Capital would be a 
target. And I think because of the cooperation between Federal, 
State and local, I think each one of your organizations has 
done a tremendous job in the intelligence end, working together 
as a team, more than I ever seen, and I think that is one of 
the reasons we have done well.
    Now, of course, the arrest or capture of Mohammed, that had 
a real significant impact. But if you look at what has happened 
in the presence of law enforcement--I was driving in another 
spot in Washington last night where I hadn't been. I saw police 
cars with lights on. I think you all should be commended so 
far--I said so far; you want to keep it up--but I think there 
has been tremendous cooperation and I think everyone who is 
working in law enforcement wants to make a difference and they 
want to make sure that they protect their citizens. Now it is 
our job to get you the resources.
    Chairman Tom Davis. Thank you all very much. It has been a 
long day for you. We appreciate the job you are doing and we 
need to look ahead at new strategies as the situation continues 
to evolve here in the Nation's Capital.
    Anybody want to add anything? If not, if you want to answer 
anything supplementary, feel free to send it in and we thank 
you very much. We will take a 2-minute break and then go to the 
next panel.
    [Recess.]
    Chairman Tom Davis. Thank you very much. We are on our 
final panel now. We have Richard White, the general manager of 
the Washington Metropolitan Area Transit Authority; David 
Robertson, the interim executive director of Metropolitan 
Washington Council of Governments, accompanied by Mary Hill, 
one of the supervisors from Prince William County and very good 
friend who is Chair of the Board of Directors. And to round out 
the panel we have Bob Peck, the president of the Greater 
Washington Board of Trade. Thank you all for your patience. And 
if you just stand with me, I will swear you in and we can get 
right to it.
    [Witnesses sworn.]
    Chairman Tom Davis. Let the record show that the answer is 
in the affirmative. And, Mr. White, why don't we go with you 
and go right down? And, again, I apologize. The congressional 
schedule is something we can't always control.

   STATEMENTS OF RICHARD WHITE, GENERAL MANAGER, WASHINGTON 
 METROPOLITAN AREA TRANSIT AUTHORITY; DAVID ROBERTSON, INTERIM 
 EXECUTIVE DIRECTOR, ACCOMPANIED BY MARY K. HILL, CHAIR, BOARD 
 OF DIRECTORS, METROPOLITAN WASHINGTON COUNCIL OF GOVERNMENTS; 
       AND BOB PECK, PRESIDENT, WASHINGTON BOARD OF TRADE

    Mr. White. Chairman Davis and members of the committee, 
good afternoon and thank you for asking me to testify. My name 
is Richard White. I am the general manager and chief executive 
officer of the Washington Metropolitan Area Transit Authority.
    Mr. Chairman, my written statement, which I am submitting 
for the record, explains in detail WMATA's emergency 
preparedness in coordination with the region. So in the 
interest of time, I will offer a summary of those remarks.
    As the largest transit provider for the national capital 
region, Metro takes its responsibility in homeland security 
with the seriousness it demands. Metro holds a unique position 
in the region in making the transformation required for 
operating in a post-September 11th environment. In making the 
necessary adjustments, WMATA must focus on two eventualities: 
the prospect of being both a target of an emergency event and a 
critical component of regional response and recovery. In doing 
so, we must consult, coordinate, and plan our activities across 
numerous Federal, State, and local jurisdictions.
    As it pertains to working with the region, one of the 
questions of this hearing, WMATA'S emergency preparations and 
security upgrades will provide limited benefits for the 
national capital region without considerable coordination and 
planning among all the region's Federal, State and local 
government players as well as the private sector. It is quite 
fitting for me to share this table with David Robertson from 
the Metropolitan Washington Council of Governments and Bob Peck 
of the Washington Board of Trade. Thanks to the efforts of COG, 
the region has made significant progress on the issue of 
regional emergency response planning and coordination.
    In September of last year, COG adopted a Regional Emergency 
Coordination Plan that was the culmination of a year-long 
effort involving numerous agencies and entities. And I'm sure 
Mr. Robertson will be referring to the RECP and the Regional 
Instant Communication and Coordination System [RICCS]. So I 
will pass on that.
    Complementing COG's emergency preparedness outreach efforts 
is the greater Washington Board of Trade, a critical link to 
the region's business community. The Board of Trade has been an 
active partner in working with others in the region toward 
development of the RECP, participating in the Emergency 
Preparedness Council of the COG, and also partnering with the 
Office of National Capital Region Coordination. They also are 
an extremely important partner in ongoing coordination and 
consultation efforts.
    I would like to speak specifically to the appointment of 
Michael Byrne to lead the Office of National Capital Region 
Coordination [ONCRC]. ONCRC provides a tremendous asset for 
helping the region to move forward with its emergency 
preparedness, particularly as it pertains to coordinating 
activities between the region and the Federal Government and to 
acting as a clearinghouse in coordinating activities amongst 
various elements of the Federal family.
    The Office of National Capital Region Coordination has 
recently initiated a process with private and public sector 
infrastructure providers in this region, including WMATA, to 
assess vulnerabilities and interdependencies and to make 
recommendations for critical infrastructure measures.
    Transportation spanning the public and private sectors is 
one of the four sectors that ONCRC will be evaluating in this 
effort along with telecommunications, energy, and public 
health. The results of this analysis will become an important 
component of the ONCRC's baseline assessment to the Congress on 
the emergency preparedness of this region as well as making 
recommendations on needed resources.
    So I would put an emphasis on that, Mr. Chairman, in that 
this new Office of the National Capital Region Coordination is 
in the process of preparing a baseline assessment and the 
importance of that assessment to the Congress. And I do believe 
the assessment will provide real direction for the region as to 
where we need to go to improve our capabilities as a region.
    Of course, this infrastructure protection is just one 
component of the emergency preparedness equation. All employers 
in the region, both private and public sector, need to take 
responsibility for having emergency plans in place and for 
actively communicating and rehearsing these plans with 
employees. In turn, they are dependent upon receiving accurate, 
timely, and substantive information from various responsible 
parties and assisting them with their emergency planning and 
response activities.
    The ongoing efforts of the Office of Personnel Management 
in coordinating activities for the executive branch of the 
Federal Government and the Board of Trade in acting as a 
catalyst for coordinating activities with private sector 
employees and employers are extremely important in this regard.
    As it pertains to another question of yours, transportation 
evacuation planning, we do have a framework in place for action 
in the transportation arena, but we are still in the process of 
learning how to make the plan operational, and much more work 
is required in this area.
    There is an annex to COG's regional plan that provides 
specific guidance on evacuation planning for the region, 
including a number of potentially promising strategies to 
facilitate management of mobility and usage of the 
transportation network, and there is an extensive listing in 
those strategies both in the plan and attached to my testimony.
    What needs to be done now is to get the necessary resources 
and commitment and efforts in place to take what we have 
already accomplished to the next level so that an actual 
operational evacuation plan can be put into place, something 
that we do not have today. The region's key players, in turn, 
must commit to resolving in advance key decisions on specific 
actions in order to obtain a consensus on a preapproved set of 
operational response strategies in anticipation of any number 
of potential scenarios.
    As it pertains to WMATA's specific issues, we do a big job 
today. The amount of people we carry and the percent of the 
work force, including the Federal work force, that we deliver 
is in our testimony. One important message from me to you is 
that we do not have an unlimited capacity to carry people. We 
are at the upper limits of our current availability to 
accommodate riders during the rush hour, so in the event of an 
emergency we could have a situation where our transit system is 
burdened beyond its existing capacity limits. And in my 
testimony is reference to a considerable analysis WMATA has 
done at the urging of this committee and in response to a 
report from the General Accounting Office that lays out the 
detailed road map we need to follow to give us the additional 
capacity capabilities that we do not have today.
    Unfortunately, these needs are over and above what we are 
receiving from Federal, State, and local sources and what we 
expect to receive from the upcoming reauthorization of the TEA 
21 surface transportation bill. The set of needs under critical 
infrastructure and addressing redundancy is a very important 
consideration of WMATA and is now our No. 1 homeland security 
priority. We are actively coordinating this issue with Michael 
Byrne in the Office of National Capital Region Coordination and 
asking the Congress and the administration to assist us in our 
effort to make operational in a timely manner a comprehensive 
backup operations control center to ensure WMATA's continuity 
of operations under a variety of threat conditions.
    Our transit police and safety specialists are currently 
facing challenges in ensuring that they receive in a timely 
manner the tools they need to respond to emergencies from 
Federal agencies offering assistance, such as FEMA and the 
Office of Domestic Preparedness within the Department of 
Homeland Security. Given the unique jurisdictional boundaries 
that define WMATA's service area, we don't fall neatly into any 
single State in terms of applying for first responder 
assistance that flows from the Department of Homeland Security 
to the States. In a sense, we are an institutional orphan. We 
frequently slip through cracks and spend a considerable amount 
of time working through the application processes with three 
State-level emergency management agencies.
    In order to expedite this process, WMATA and other regional 
agencies should be able to apply directly to the Federal 
agencies offering first response and other emergency 
assistance. Any assistance the Congress can provide in this 
manner will be greatly appreciated.
    I want to thank you, Mr. Chairman, and the rest of the 
members of the committee for the opportunity to present these 
remarks and for the support you have provided to Metro over the 
years. We look forward to continued discussions with the 
region, the administration, and the Congress on ways to enhance 
the emergency preparedness response and recovery capabilities 
of WMATA in the national capital region, and of course I would 
be happy to answer any questions that you might have.
    [The prepared statement of Mr. White follows:]

    [GRAPHIC] [TIFF OMITTED] T7679.067
    
    [GRAPHIC] [TIFF OMITTED] T7679.068
    
    [GRAPHIC] [TIFF OMITTED] T7679.069
    
    [GRAPHIC] [TIFF OMITTED] T7679.070
    
    [GRAPHIC] [TIFF OMITTED] T7679.071
    
    [GRAPHIC] [TIFF OMITTED] T7679.072
    
    [GRAPHIC] [TIFF OMITTED] T7679.073
    
    [GRAPHIC] [TIFF OMITTED] T7679.074
    
    [GRAPHIC] [TIFF OMITTED] T7679.075
    
    [GRAPHIC] [TIFF OMITTED] T7679.076
    
    [GRAPHIC] [TIFF OMITTED] T7679.077
    
    [GRAPHIC] [TIFF OMITTED] T7679.078
    
    [GRAPHIC] [TIFF OMITTED] T7679.079
    
    [GRAPHIC] [TIFF OMITTED] T7679.080
    
    [GRAPHIC] [TIFF OMITTED] T7679.081
    
    [GRAPHIC] [TIFF OMITTED] T7679.082
    
    [GRAPHIC] [TIFF OMITTED] T7679.083
    
    [GRAPHIC] [TIFF OMITTED] T7679.084
    
    [GRAPHIC] [TIFF OMITTED] T7679.085
    
    [GRAPHIC] [TIFF OMITTED] T7679.086
    
    [GRAPHIC] [TIFF OMITTED] T7679.087
    
    [GRAPHIC] [TIFF OMITTED] T7679.088
    
    [GRAPHIC] [TIFF OMITTED] T7679.089
    
    [GRAPHIC] [TIFF OMITTED] T7679.090
    
    [GRAPHIC] [TIFF OMITTED] T7679.091
    
    [GRAPHIC] [TIFF OMITTED] T7679.092
    
    [GRAPHIC] [TIFF OMITTED] T7679.093
    
    Chairman Tom Davis. Mr. Robertson, thank you--Mary.
    Ms. Hill. Thank you, Mr. Chairman. It is my first time as 
well, so I am excited. Be kind. First and foremost, I am a 
local elected official, and I say that in appreciation of 
Congressman Ruppersberger's comments earlier about the hometown 
responsibility that local elected officials have in providing 
effective emergency response. But this year, I am honored to be 
the chairman of the Metropolitan Washington Council of 
Governments. As you know, Mr. Chairman, having served as its 
president in the past, the Council of Governments is an 
organization of our 18 local jurisdictions within the 
Metropolitan Washington Region. At this time, I also serve as 
the first Chair of the national capital region's Emergency 
Preparedness Council, and I am pleased to be here today to 
begin COG's presentation on its role in emergency preparedness.
    I am accompanied, or I was accompanied earlier, by the two 
vice chairs of our Emergency Preparedness Council, Carol 
Schwartz, who is a member at large of the Council of the 
District of Columbia, and Bruce Williams is also vice chair of 
the Emergency Preparedness Council. He is mayor pro tempore of 
Takoma Park; and vice chair of the Board of Directors, Mayor 
Judith Davis of Greenbelt, who was also with us earlier. Still 
with me is David Snyder, a member of the Transportation 
Planning Board at COG and also a key member of the team that is 
working on emergency preparedness, particularly the 
transportation evacuation annex.
    Let me acknowledge at the outset some of COG's most 
important partners in addressing emergency preparedness who are 
here today: Richard White, general manager of WMATA, and Bob 
Peck, president of the Greater Washington Board of Trade. 
Collaboration with the region's major transportation authority 
and the principal organization representing the private sector 
was key to making the regional process both comprehensive and 
effective.
    COG and its partners want to express our gratitude and 
appreciation to Members of Congress because they recognized 
quickly the need for a regional role in emergency planning. 
Without your interest and support, we could not have mounted 
the planning process or achieved the level of coordination we 
will describe here today. And we are proud to say that by 
funding the regional planning progress, Congress demonstrated 
vision and leadership even as our Nation was recovering from 
the shock of a terrorist attack.
    The tragedies of September 11, 2001 alerted all levels of 
government and the citizenry at large to the need for improved 
response to natural or human-caused emergencies in the national 
capital region. This need has been addressed at three levels: 
at the Federal level through the creation of the Office of 
National Capital Region Coordination within the Department of 
Homeland Security; at the State level through the national 
capital regional Summit, sponsored by the Office of Homeland 
Security, the Governors of Maryland and Virginia, and the Mayor 
of the District of Columbia; and at the regional level through 
COG and the governmental, private, and nonprofit first 
responders in the national capital region.
    Our testimony will cover discussion of COG and its role in 
the region that was produced as a result of the COG-led 
emergency planning process and the goals that will buildupon 
current accomplishments.
    Finally COG's testimony includes a status report on 
specific issues of interest to the committee. And I would like 
to acknowledge that two outcomes of that committee--of the task 
force--was the creation of the RECP, which is the Regional 
Emergency Coordination Plan which was approved last September 
11, 2002 on the 1-year anniversary of the terrorist attack, but 
it now just demonstrates the level of coordination and 
cooperation within the region. It has now been adopted formally 
by 16 members of the COG and there are two jurisdictions yet to 
adopt it, but it is on their docket for adoption, and also the 
risks which you heard mentioned, which after September 11th 
where it took 8 hours for a lot of that conferencing to occur. 
Now, as a result of the RICCS, within 30 minutes of a terrorist 
incident or threat of an incident, the RICCS goes into 
operation.
    Mr. Chairman, the national capital region's emergency 
planning process has created a vital partnership among the 
groups here today to report to you, and we are very proud of 
what has been accomplished so far. And, more importantly, we 
are committed to maintaining a State of readiness to help 
assure the security of the citizens of this great region.
    I would like to thank you personally, Congressman Davis, 
for your support in cosponsoring legislation which 
unfortunately did not make it out of committee last year, but 
legislation by Congressman Kingston of Georgia, which would 
have allowed for regional funding for homeland security 
efforts. And I still believe that is necessary to the success 
of our region and other regions throughout the country.
    Another issue that is important to me is the need to 
provide for our first responders. And one of the things that 
you may not be aware of, one of the needs of our first 
responders that has gone unmet for many many years, is the 
liability and indemnification issue that has a federalism 
aspect to it that has been very difficult to provide a solution 
for because of the disparate State laws and different laws in 
the District of Columbia so that our responders will have the 
indemnification and our local governments will not have that 
liability issue, and we will need your support in that. And 
Secretary Ridge and Mike Byrne have agreed to help us with that 
as well. But it is an important issue for our public safety 
folks as well as others.
    And let me take the opportunity to introduce our former 
interim executive director, but as of yesterday he is our new 
executive director at COG, David J. Robertson, who will 
continue our statement. And thank you very much for the 
opportunity to be here today.
    Chairman Tom Davis. This means he is permanent now?
    Mr. Robertson. Thank you, Mr. Chairman and members of the 
committee. As was referenced----
    Chairman Tom Davis. I am a former president of Council on 
Governments and Metro rider--I have got you all.
    Mr. Robertson. I am very pleased to present the balance of 
COG's testimony concerning the Regional Emergency Coordination 
Plan. We are tremendously proud of that. We believe it is the 
first regional coordination plan in the Nation's Capital, 
certainly, but also in the Nation as whole. We modeled that 
plan after the State and Federal emergency plans, so there is a 
full consistency between these local Federal and State plans.
    We have worked very hard to develop the regional incident 
communication and coordination system. Several of the speakers 
have referenced that as part of their comments and it was 
extensively used by the Council of Governments not only in the 
sniper incidents several months ago, but has been regularly 
tested by our local first responders and they have found it to 
be a very worthy tool to improve coordination and cooperation 
in the national capital region. It is also important to note 
that just about all of the stakeholders that have been present 
for this testimony today have been part of the creation of the 
Regional Emergency Coordination Plan.
    COG sees its role as a convener in forum to bring together 
sometimes disparate interests to find a common ground and 
common solutions that we believe are necessary in the Nation's 
Capital region.
    I will now focus and respond quickly to the points that 
were asked by the committee. Our expanded written testimony was 
provided to the committee along with the summary of the 
Emergency Coordination Plan. We share the assessment that there 
has been a great deal of communication and a great deal of 
cooperation but more needs to be done. The stakeholders at the 
State level and the Federal level are active partners in our 
national capital region Emergency Preparedness Council and have 
been part of the deliberations and actions by COG. We recognize 
that COG's role is not operational but we also find value in 
the coordination of those agencies that have operating or 
response capability.
    On the matter of transportation, evacuation, and street 
closures, our Regional Emergency Plan also includes a 
transportation and coordination annex that is the foundation 
for further work by Metro, the Board of Trade, State Department 
of Transportation, State emergency management agencies and 
others.
    Additionally, the medical assistance and response 
preparedness, we have been working very closely with Federal 
agencies and State health departments and local health 
departments to build on the disease surveillance systems that 
are currently being pursued by the Federal Government.
    And last but not least, of course, communications and 
technology. We believe that the RICCS system provides an 
unprecedented access to decisionmakers to provide them real-
time information so that decisionmakers need not get all of 
their information from the media, but from responsible 
emergency management officials and can make decisions 
accordingly.
    In the interest of time, that concludes my presentation and 
I will be available for questions.
    [Note.--The Metropolitan Washington Council of Governments 
publication entitled, ``The Regional Emergency Coordination 
Plan.'' may be found in committee files.]
    [The prepared statement of Mr. Robertson and Ms. Hill 
follows:]

[GRAPHIC] [TIFF OMITTED] T7679.094

[GRAPHIC] [TIFF OMITTED] T7679.095

[GRAPHIC] [TIFF OMITTED] T7679.096

[GRAPHIC] [TIFF OMITTED] T7679.097

[GRAPHIC] [TIFF OMITTED] T7679.098

[GRAPHIC] [TIFF OMITTED] T7679.099

[GRAPHIC] [TIFF OMITTED] T7679.100

[GRAPHIC] [TIFF OMITTED] T7679.101

[GRAPHIC] [TIFF OMITTED] T7679.102

[GRAPHIC] [TIFF OMITTED] T7679.103

[GRAPHIC] [TIFF OMITTED] T7679.104

[GRAPHIC] [TIFF OMITTED] T7679.105

[GRAPHIC] [TIFF OMITTED] T7679.106

[GRAPHIC] [TIFF OMITTED] T7679.107

[GRAPHIC] [TIFF OMITTED] T7679.108

[GRAPHIC] [TIFF OMITTED] T7679.109

[GRAPHIC] [TIFF OMITTED] T7679.110

[GRAPHIC] [TIFF OMITTED] T7679.111

[GRAPHIC] [TIFF OMITTED] T7679.112

[GRAPHIC] [TIFF OMITTED] T7679.113

[GRAPHIC] [TIFF OMITTED] T7679.114

[GRAPHIC] [TIFF OMITTED] T7679.115

[GRAPHIC] [TIFF OMITTED] T7679.116

[GRAPHIC] [TIFF OMITTED] T7679.117

[GRAPHIC] [TIFF OMITTED] T7679.118

[GRAPHIC] [TIFF OMITTED] T7679.119

[GRAPHIC] [TIFF OMITTED] T7679.120

    Chairman Tom Davis. Mr. Peck, thank you very much for being 
here and waiting. Last but not least.
    Mr. Peck. I used to work on the other side so I know how 
long these things can go. Thank you for allowing us to be here.
    The Board of Trade now has 18 months' experience working on 
emergency preparedness in this region. I want to recognize, 
over my left shoulder, Caroline Cunningham and George Radenberg 
who chairs our committee, who is with AOL Time Warner. I want 
to thank the Council of Governments because they have, as the 
phrase now goes, embedded our members in just about every 
subcommittee they have working on emergency preparedness.
    I want to say that there is--a lot is better than it was on 
September 11, 2001, obviously, in terms of emergency 
preparedness. I also want to say I think there is lot left to 
be done. And I also want to say, as the only person here who 
doesn't get a government paycheck and is maybe a little freer 
to talk, I don't believe that the region as a whole has been 
working at a pace in the 18 months since September 11th that 
reflects the urgency of this situation. We may be saying, what 
war on terrorism? I don't think we are moving at a wartime 
pace.
    Second, I am speaking here today, if I can presume to do 
so, for the 80 percent of employees in this region who are not 
employed by either State, Federal, or local governments. There 
are a lot of us. We are better prepared today. Communication is 
better among all of the regional law enforcement authorities, 
transportation authorities, and regional leaders. The COG 
communication system, RICCS, has done a tremendous job on that. 
We have private utilities beginning to work with the Department 
of Homeland Security on critical infrastructure protection. The 
public health sectors now have a syndrome reporting system 
which should prepare us or let us know as soon as possible if 
we face a biological threat. Our hotels are better prepared. 
And schools, we note, are beginning to send home notices to 
parents about what is going to happen in the schools.
    But overall, what we are concerned about is the lack of 
consistent and available public information, particularly to 
employers and their employees, and still critical 
infrastructure report.
    We think that the Congress and you particularly, 
Congressman Davis, did a great job in setting up the Office of 
National Capital Region Coordination, and we could not be 
happier that Mike Byrne has been appointed to head it. Every 
time Mike Byrne speaks to one of our groups, and he has done it 
several times, he speaks with authority. He is plain talking, 
clear thinking, action oriented, and is eager and even willing 
to collaborate. Every time he does address a group, 
participants walk away calmer, better informed, and knowing 
what courses of action they might be required to take, and just 
as importantly, what courses of action they are probably not 
going to be required to be taken.
    And I have to say the same about Chief Ramsey who has given 
some terrific briefings to business. And you heard an excerpt 
from it today, when he told you, among other things, that it is 
most unlikely we would ever need a mass evacuation of the city, 
and we need to repeat that more to our employers. The likely 
scenarios are those that don't require mass evacuations. They 
do require something that's even more difficult to impress upon 
people in the public, which is they probably got to stay put. 
That requires people be prepared. You can't expect when 
something starts to happen and the flee response kicks in, that 
everyone is going to stay put unless we have been prepared for 
it.
    There is urgent action required in bridging the gap between 
what is government planning which is realistic and hard-nosed 
and the public information we are getting. We think the public 
is prepared for and able to assimilate tough unpleasant 
information and we don't think the public's been getting it. We 
can't be prepared if the public isn't clued in and prepared in 
advance. It is not enough to say, have a kit and when something 
happens we will tell you what to do. By the time we try to tell 
people what to do in the midst of an emergency, people will 
have already taken their own separate actions and things won't 
work well. So we need some better information flowing from 
public officials overall.
    I also have to tell you that our employers feel both the 
moral responsibility and a legal responsibility to take care of 
their employees. And I want to call one issue to your attention 
which our members have been apprising us of more and more in 
recent weeks, and that is their concern over the liability, 
legal liability as well as moral obligation that they face in 
making decisions about emergency preparedness.
    A lot of employers are concerned about what actions they 
might be held liable for taking or not taking if something 
should happen, or even in the case of just practice drills. And 
I believe at some point that we may want to come back to you 
and suggest legislation to deal with this issue. In the absence 
of clear and unequivocal government advice, employers are 
really at risk when they try to take their own actions on 
emergency preparedness.
    I want to talk a little bit about the incident, the tractor 
man incident. There is nothing that has happened in the 18 
months since September 11th that has more degraded the public's 
confidence in our ability as a region to handle an emergency. 
We thought, before that incident, people were beginning to 
believe that we had things well in hand; and I think we do have 
things much better in hand. You would be hard-pressed to know 
it from having looked at the tractor man incident.
    I want to make a couple of points. One, I heard the Park 
Police director on television say that the real problem is that 
there had been some minor damage to Park Service property. You 
correctly identified there was a much larger issue at stake, 
and I'm not sure it was immediately apparent to some of the 
Federal officials.
    Second, the metropolitan police department was very active 
in helping close down the streets and man the barricades around 
the incident. Our office at 17th and I street, I was able to 
watch several rush hours go by, and it was only the very last 
morning that I saw any traffic control officers appear on the 
streets, on I or K streets. Used to be when I was a kid growing 
up here, we had traffic control officers at major intersections 
every rush hour. This time we didn't even have it during a 
major incident causing gridlock. I think that ought to change. 
And I think as a daily instance, we ought to consider some 
different way of controlling traffic in the city.
    On critical infrastructure, 82 percent of the critical 
infrastructure in this region is owned and operated by the 
private sector. Mike Byrne has set up a group to work on this 
and the critical infrastructure companies in our region, gas 
and electric, communications, are currently paying for 
increased security and surveillance already. However, many of 
the federally recommended infrastructure improvements are not 
currently included in their capital plans because the resources 
aren't available. Metro is prohibited, I believe, from using 
customer-generated revenue on capital expenditures.
    And I would add that the Federal budget doesn't consider 
critical infrastructure protection eligible for the funding 
which is otherwise eligible for first responders and emergency 
planners. So I hope we will be able in subsequent 
appropriations to develop some funding for the critical 
infrastructure people in the region.
    Just two other comments about transportation and emergency 
transportation. Mr. Chairman, there is, as you have noted and 
as Congressman Wolf noted, a need for a regional response to 
transportation. I will note again the Board of Trade for years 
has suggested that there be a regional transportation 
authority. Finally I will note that every day--we held a 
conference last year called Unlock Gridlock. Estimates are that 
every day in this region, 40 percent of the traffic congestion 
is caused either by an accident or construction projects on the 
roads. Some of that congestion could be reduced by better 
management, whether it is stationing tow trucks and cranes in 
strategic locations, doing a better job managing construction, 
better signage. There are ways to deal with this issue which is 
one we face every day and not just in emergencies.
    Thank you for inviting me and I will be happy to answer any 
questions.
    Chairman Tom Davis. Thank you very much.
    [The prepared statement of Mr. Peck follows:]

    [GRAPHIC] [TIFF OMITTED] T7679.121
    
    [GRAPHIC] [TIFF OMITTED] T7679.122
    
    [GRAPHIC] [TIFF OMITTED] T7679.123
    
    [GRAPHIC] [TIFF OMITTED] T7679.124
    
    Chairman Tom Davis. Mr. Peck, I didn't write your 
testimony, but I could have, particularly on the incident on 
the Mall, but I know of at least two cases where emergency 
vehicles were significantly late because they couldn't get 
through the traffic and fortunately there were no deaths. It is 
a big picture, the total picture. And we heard them talk about 
the life of one person and they wanted to protect that, and 
that is important. But over time, if you can't get through 
other emergencies and you shut down the town, there are huge 
ramifications.
    We have to find a balance. I don't want to beat it to 
death. That is the point. It is not just everybody is 
inconvenienced and you lose productivity and Congress can't 
meet--and most people don't care about that. But the fact is 
when you can't get emergency vehicles through, then there is a 
huge impact.
    Mr. Peck. I will just say again, in most other cities you 
do see police officers on the street during major rush hours. 
At almost every bridge and tunnel that you see, there are 
dedicated tow trucks. And I know in lots of tunnels, the 
strategy is if somebody gets stuck, you can't have a tunnel 
shut down. And you were talking before that you know they have 
to take the accident report, and a lot of tunnels, they push 
the vehicles out of the tunnel if they have to. They don't mess 
around, and I think that may be called for.
    Chairman Tom Davis. I think they are going to come back 
with some new strategies. Hopefully, this has been helpful and 
motivating to do that.
    Mr. White, let me start with you. Let me talk about the 
blizzard, the snowstorm. I got the last train out of Union 
Station that night. I had flown in from Florida to New Jersey. 
Had to get my son back, who had an exam at Mr. Van Hollen's 
alma mater the next day since they weren't canceling school. 
And then I took the train the rest of the way down with my 
daughter and got the last train out to Vienna, but obviously it 
was tough. That place was packed. But I gather from running 
them during the evening of the snowfall, damage was incurred 
and the like, and I wonder if you could elaborate on that, 
because I know when government finally reopened, you had a 
number of cars that were out of commission.
    Is there anything we can do to prevent that? I just don't 
understand it well enough to understand what happened, how we 
can prevent it, and maybe you shouldn't have put them out there 
the night everybody was stuck.
    Mr. White. It is a tough call. And in that particular 
instance when the snowfall began in earnest largely on Sunday, 
with Monday being a holiday, there were a number of events that 
were going on in the region. People were urged to take Metro to 
these events that were going on at the MCI Center, the 
Convention Center, other places. I don't know what everybody 
was doing in the system with that kind of snowfall going on, 
but there were a remarkable number of people in the system at 
that particular point in time.
    And we needed to make a decision. When we would normally 
then move into a major protect-our-system and snow-removal 
mode, we had all these people in the system. And we were caught 
with that judgment to make, and we made the judgment that we 
really--and have lived by this creed for all of our history, 
that our job really is if we bring you in, we bring you home. 
And we found that to be the need. That was the compelling need.
    There is no doubt when our--this is not a major snowbelt 
area, unlike like the Northeast. We get a storm like this 
statistically once every 9\1/2\ years. And our equipment, 
unlike those in other weather-prone parts of the country and 
the world, can't handle snowfalls in excess of about 8 to 10 
inches. When that happens, it just attacks and destroys our 
equipment in huge numbers.
    Chairman Tom Davis. We would be paying a lot of extra money 
for the equipment to get up to speed.
    Mr. White. That is the point, Mr. Chairman. The question 
is, do we fund ourselves at a level to prepare for an event 
every 10 years statistically, or do we grin and bear it and 
attempt to learn each time to make improvements each time that 
we can make to make the situation better and the response 
better? And that, quite frankly, is kind of the double-edged 
sword that we have lived by. The decision to take care of our 
customers during that first day led to consequences that were 
obviously impacted by our customers in the subsequent couple of 
days.
    The other interesting comparison, Mr. Chairman, is the last 
major snow event we had of this magnitude was back in 1996. And 
during that event, the major employers shut down for 3 
consecutive days, and 4 out of 5 working days after the snow 
event. In this case, the major employer shut down 1 day.
    So there is an obvious relationship between the earnest 
desire that people return to normalcy and return to work as 
soon as possible. And it wasn't just the Metro system that was 
suffering from the effects of the snowfall. Our road system was 
basically in the same kind of shape with respect to limits on 
our capacity. And obviously, we as a region saw the effect of 
those sets of conditions.
    So I think this issue is--and our board has agreed to 
relook at these things, and we are working with the COG and our 
partners. Do we continue to stick with what our creed has 
always been? Will we take care of the people we bring in? Do we 
need to modify that decision in some fashion? And secondarily, 
do we want to consider toughing up for an event that occurs 
every decade or not?
    Chairman Tom Davis. That was our first code orange that 
weekend. Nobody could get through anywhere. I understand that 
dilemma. I don't know what I would have done at Union Station. 
I didn't get to ride with the 76-ers. I was back at the cheap 
seats on the same train. But we got there. You couldn't get a 
cab.
    Mr. White. We were the only thing moving.
    Chairman Tom Davis. Mr. Van Hollen.
    Mr. Van Hollen. Thank you, Mr. Chairman, and thank you for 
waiting through a long hearing. I appreciate it.
    Mr. White, while we've got you here, one comment with 
respect to proposed Metro fare raises. I just urge you to look 
very carefully before we increase Metro fares, because I think 
it will have an impact clearly on Metro ridership.
    I know you have been a victim of your own success in many 
ways. I am very concerned that an increase in the fares will 
result in fewer people taking the Metro and putting them on the 
road. So I really hope that you will take a good look at that. 
That, of course, is related to the kind of resources that you 
received elsewhere. And that leads to my question. Have you 
received any funds from any source for the specific purpose of 
responding to domestic security issues?
    Mr. White. Yes, we have. We are quite grateful to both the 
Congress and the administration in the first go-around in 
appropriations that took place a little over year ago where the 
region received a considerable sum of money. We were the 
beneficiaries of $49 million, $39 under the appropriation 
control of the Congress, and $10 that was released under the 
authorities of the executive branch. And in my testimony there 
is reference to a number of activities that we have used to 
increase our preparedness. It is money that has been very, very 
important to us.
    We have spent most of the money. There is only very little 
of it that hasn't already been put in place and has done things 
running the gamut of making major improvements for our police 
departments, providing explosive-resistant trash receptacles in 
our stations, to target-hardening ourselves with a variety of 
cameras and alarms and putting in chemical sensors in our 
stations and a lot of things.
    A lot of good things have come from this investment, but 
there are other things that we still have been making a request 
on for subsequent improvements as well.
    Mr. Van Hollen. What is the nature of your----
    Mr. White. Our most significant liability at the moment, 
and that which has been identified by Federal vulnerability 
assessment conducted by the Federal Transit Administration, is 
the fact that we are an enormously centralized operation. And 
because of the centralization, both the control of our trains 
and buses, the communications, the process control, our 
business systems and lack of sufficient redundancy and 
supplemental capabilities is the single thing that we are most 
concerned about; overcoming that and building enough initial 
alternate and redundant capabilities so we can properly control 
the movement of our trains and buses, properly communicate any 
and all types of normal circumstances in the event that we need 
to be able to do it out of the location where it is currently 
conducted.
    Mr. Van Hollen. Are you eligible for the funds out of the 
Urban Area Security Initiative?
    Mr. White. That's an interesting question. And in my 
testimony, I draw a little bit of a reference to that. I'm not 
the expert on it, but my understanding is that there is the 
formula that drives the money out to the States, and then there 
is a process through which the States allocate the money back 
out to the local jurisdictions. We are not owned by anybody.
    You perhaps were not in the room during part of my 
testimony. In essence, we are an institutional orphan and we 
don't have a chief elected official that owns us. We don't have 
a legislative body that owns us. Granted, we get a lot of help 
from a number of people. But when money gets driven in a State-
driven process, we are not the first thought of a chief elected 
official from a State or a city.
    Mr. Van Hollen. Part of the purpose of coordinating things 
that we talked about earlier is to identify priorities within 
the region. And I would hope that if there are any legal 
obstacles to sharing in that part of the money, if it is 
identified as a priority in the region, that you let us know so 
we can address those issues. If it is identified by the group 
that providing additional funds for WMATA is necessary, I would 
hope that we----
    Mr. White. Yes. And there I think lies the critical 
importance and really the luck that we have that our region was 
designated really with special status with the creation of the 
Office of National Capital Region Coordination and, of course, 
Secretary Ridge's appointment of Michael Byrne to head that 
effort up. He has hit the ground running, and his task at hand, 
amongst all the things that the members have directed to him, 
is that he is obligated, or that office and the Department is 
obligated, to provide this Congress with the baseline 
assessment of our region and what that baseline assessment is, 
including the vulnerabilities and the interdependencies and in 
essence what are the priorities the region needs to attack.
    He is also conducting a coordination of critical 
infrastructure review to determine again vulnerabilities and 
interdependencies of critical infrastructure review. He has 
reached out to all of us to participate in the process, and for 
that we are very, very grateful. And we are looking forward to 
the outcome of that process, because I am hopeful that it will 
provide a clearer road map to everybody who is looking for what 
are the most important things that the region needs to attend 
to that perhaps they are a little bit exposed to at the moment.
    Mr. Van Hollen. And one other question to you which relates 
to you--and you are right, I have been running back and forth 
to the Education Committee where we are voting on a series of 
amendments, so I am sorry if you already addressed this. But 
with respect to sensors in the Metro system, can you elaborate 
on what you have done, because that is a critical issue? Some 
of these potential chemical weapons, you can't see them, you 
can't smell them. They could be in the system for a period of 
time before people know they are there. And obviously early 
sensors are critical. How comprehensive is our sensor system in 
the Metro?
    Mr. White. I heard your interest and other Members' 
interest in their line of questioning with some of the previous 
participants. Again, we are very, very grateful to the work 
that we have done with the Department of Energy, the Department 
of Justice, and the Department of Transportation. We are the 
single laboratory in the world right now for the testing of 
chemical sensors in a mass transit environment. There is no one 
else in the country, or the world for that matter, that is 
testing out a civilian application thing.
    Part of the money that the Congress gave us and the 
President gave us is being used to begin building that 
capability up. We have sufficient funds to do some portion of 
our underground stations. We have some capabilities today. We 
are continuing to expand those capabilities as we finish the 
spending out of that money. That includes the sophisticated 
engineering modeling to determine as to how these various 
substances would work and the piston effect of trains moving 
through stations. It is coordinated with first responders so 
they have remote detection capabilities, before they might go 
into harm's way, to know what they are about to go into so that 
they can prepare themselves properly.
    So this is a very sophisticated capability and it is giving 
us an enormous tool that others don't have to hopefully send a 
message of deterrence and, second, give us the capability to 
respond far faster than any other transit system might be able 
to do.
    In addition, we have capabilities in the arena of 
biological and radiological detection and response as well.
    Mr. Van Hollen. Just in closing, I want to thank the other 
witnesses for being here.
    Mr. Peck, I agree with you with respect to the need for 
greater urgency in transmitting information to the public, 
because the best plans will be totally confounded if the 
public--and it has to be done in a measured way. I think you 
know, clearly, we had the incident with the duct tape and 
plastic which scared people more than was necessary. What we 
need to do is address this in a measured way when we are not 
moving from one threat level to another and allow people to 
know things, like in the event of an attack you shouldn't be 
getting in your car and driving out necessarily. And if we 
don't communicate that effectively to people ahead of time so 
that people, just as they prepare for any other kinds of 
emergencies that might occur in their household, if we don't do 
that ahead of time, the best made plans will in fact come to 
nothing. And so I appreciate you speaking out as part of this 
forum and other forums you have been speaking out on that. 
Thank you.
    Chairman Tom Davis. Thank you very much. Mr. Ruppersberger.
    Mr. Ruppersberger. It is great to see that we have a region 
that is trying to work together. I wish I had more knowledge of 
the Virginia and Washington area. I know more about the 
Maryland area.
    One of the things I think with regional cooperation, it is 
important to pull together, because if you have come together 
you have more influence and power to get what you want. But you 
have to come to a conclusion on your priorities.
    Are you having a problem as a region working together with 
the different counties involved, putting together the 
priorities that you think you need for homeland security, for 
transportation, for some of the issues we talked about today? 
That is one question.
    The other thing, Mr. Peck, I am happy you are here today, 
because I think it is very important having a partnership 
between business and government. Government can't do it all. It 
won't do it all, and if you rely on them it isn't going to 
happen.
    There is a lot that we talked about in homeland security. 
And one of the things we haven't talked about is the impact of 
security with respect to business; you know, coordinating our 
high-rise office buildings, getting our real estate people 
together, looking at the ventilation systems, finding out how 
you are going to evacuate your own building, finding out if you 
need sensors. I mean, there is a lot that we haven't talked 
about.
    The people who are coming and being impacted by traffic are 
the people that are working in those buildings. And I think 
that is important. But I am going to ask you another question 
later on. The first question about the priorities, sir.
    Ms. Hill. Yes, Congressman Ruppersberger, I acknowledged 
earlier when I made my remarks that I appreciated your remarks 
earlier about hometown responsibility. COG is an organization 
of local governments, 18 local governments in this region. We 
adopted our Regional Emergency Coordination Plan. I believe you 
received a copy of the brief on September 11, 2002. At this 
point we have had 16 of our 18 jurisdictions sign the MOU and 
adopt this formally, and 2 have it left on their docket for 
adoption very shortly. The point being is that the local 
governments throughout the region, not just the elected 
officials, that we have committees of our police chiefs, our 
fire and rescue folks, public works, planning, transportation, 
everybody has been involved in this process. But also at the 
table we have been very inclusive. We decided, as local elected 
officials on the board of directors, very shortly after 
September 11th that, yes, being on the first line of 
responsibility for providing for our first responders and also 
being the folks that our constituents meet in the grocery 
stores--we hear a lot from our constituents and I am sure you 
do as well, but we hear from them all the time that we needed 
to do something. So the local elected officials are very 
committed to working at the regional level. Our group brought 
together the Board of Trade, the Red Cross, the State folks. 
And Secretary Ridge has been very, very supportive. And I'm 
very appreciative of Mike Byrne.
    There was a point made earlier when you talked about how 
well we are working together. I think for the local elected 
officials it is working great. We have been working closely 
with the State. But we do have budget constraints. The States 
are in trouble and the localities are in trouble.
    And then you get to money--you raised the issue of drug 
enforcement money earlier. I will give you an example in 
Virginia of why I think it is important not just to fund at the 
State, but also to provide funding at the regional level. In 
Virginia, I have been trying to get a drug court in Prince 
William County. We just funded a juvenile drug court through 
our budget process. We could have gotten money through the 
intensive Drug Enforcement Agency's moneys that are funneled 
through to the States, but those IDA moneys were put into the 
general fund in Virginia. I am sure they go for worthy causes, 
but the transparency just isn't there for me. I don't know 
where they go. But it would have been money that would have 
been available.
    Mr. Ruppersberger. With respect to your regional 
cooperation, have you set goals and priorities? Because I think 
it is very effective to do that. And a lot of times it is 
difficult to pull that together.
    Mr. Peck, let me ask you a question. You made the comment 
that you feel that there hasn't been enough information that 
has been flowing. What information would you like to hear or 
see? What do you think where it would be better?
    Mr. Peck. I will give you a specific example. At one of his 
briefings, Chief Ramsey was asked when everybody started 
talking about shelter in place or staying put, the concept 
which still most of the public hasn't heard of--and it is 
probably the most important thing we need to tell people. But 
he was asked, well, do we need to buy cots for our employees? 
And he had the guts to say, we are probably talking about being 
there more like 8 hours than 8 days. I don't think you need to 
be prepared to stay overnight.
    That is important for people to hear because there are 
scenarios being bantered about on TV and the media in general 
that would have people think they are going to be on their own 
for goodness knows for how long. And that is the specific kind 
of thing.
    Here are the likely scenarios that you're going to face is 
really important because at least we can prepare people for 
those. No guarantees, but it would be good.
    Can I make one other point about the local coordination? I 
think we have done a great job in this region of setting 
priorities.
    I really think flowing funds through the States just like 
transportation funds get flowed through the States means that 
regions don't necessarily get the allocation that you might 
expect them to get.
    Mr. Ruppersberger. I agree with you--but I was in local 
government for 18 years, so I feel differently. It's more 
efficient that way, too.
    And I will say about the Board of Trade, I served on the 
Olympic committee. Unfortunately, we didn't get that; and the 
Board of Trade had a lot to do with it. We really would have 
had some issues there with respect to traffic had we gotten 
that, but I also think that the Board of Trade, which would be 
a good business partner with any organization--because you do 
your research and get your facts and data. I think if you look 
at the intercounty connector just in Maryland, you had a lot to 
do with influencing and getting the information.
    However, I would say this. I think a lot of businesses talk 
a lot, but they are not as involved as they could. Let me tell 
you why.
    I think, right now, we need help. We talked about traffic 
engineering. We talked about that we might not have the 
expertise or the money or whatever, but there are a lot of 
engineers out there in the business community who could come 
together, do the same thing that you did with respect to the 
intercounty connecter and some other issues and help and give 
us the resources in the government arena; and that is extremely 
important, something I think we need to work on.
    Also, I think the issues that you heard about here today--I 
know my time is up, so I'll move quickly. But you take more 
time than I do when you answer the questions.
    You know, I think anything--management starts at the top, 
and you have to be held responsible if you're at the top. Now, 
I praised the police departments, and I think they are doing a 
good job, but right now--and I said that right now, but 
sometimes people are used to doing the same things over and 
over, and there is a lot that has changed since September 11th. 
And just the frustration of being involved in traffic and not 
having a live individual who can redirect something, I think, 
you know, we've got to learn from those mistakes, and I think 
that you and the public are putting the pressure on to make 
sure that we look at this and have the authority so that the 
person at the top who is making the decisions can make the 
right decisions and be held accountable for those decisions.
    So there's a lot to do. I believe we can turn a negative 
into a positive with September 11th.
    We've got a big problem here in Washington. We have the 
Nation's Capitol, but its infrastructure is really inadequate, 
and there needs to be a lot of money, probably Federal money, 
but its got to be more of a teamwork approach.
    This reminds me more of a transportation hearing today than 
it was a--and I'm glad we talked about that, because in the end 
whatever happens with the terrorism issue, we're going to have 
to decide, do we stay, do we go, what's going to be impacted, 
is it going to be our subways, is it going to be our traffic, 
is it going to be our airline, you know, all of those issues 
that need to be involved. So keep being involved.
    And, again, I'm calling after you, Mr. Peck, because you 
have a good record. You're Board of Trade. We need a lot more 
help from the business community in a lot of the areas that I 
mentioned.
    Mr. Peck. Thank you. I agree.
    Chairman Tom Davis. I guess I get to ask a few questions. I 
won't keep you much longer, but thank you very much.
    Let me ask you--I don't know, Mr. Robertson or Ms. Hill, if 
you know, who leads the RICCS conference calls and how is it 
decided who the parties are?
    Mr. Robertson. The RICCS conference calls--the RICCS 
server, it's a computer-based server that is headquartered 
currently in the D.C. Emergency Management Agency, because it 
is a 24/7 emergency management center. We also have a new 
center that's been established in Montgomery County, and an 
additional one will be put in Fairfax County and also in the 
State emergency management agencies in Richmond and in 
Reisterstown, MD.
    The RICCS data base is populated by information from the 
various stakeholders. For example, the emergency management 
directors at the State and local level, we have the contact 
information. We put that information in through the Council of 
Governments, and then it's----
    Chairman Tom Davis. Who leads the call, though?
    Mr. Robertson. The conference call is typically led by 
either the chief administrative officer, the city and county 
managers for the incident location, or it could well be a 
Federal agency or State agency, but it is----
    Chairman Tom Davis. Mr. Peck, do you think that the typical 
business owner knows what to do in the event of an emergency or 
what actions to take when a color code alert activity level 
changes?
    Mr. Peck. No.
    Chairman Tom Davis. I don't either. I was at a Q and A and 
somebody said, we understand at code red the airports are 
closed. I said, oh, that can't be right; and I went back and 
checked it; and I think that may be right.
    Mr. Peck. Well, there is an assumption, for example, that 
at code red all the museums on the Mall will close; and that's 
not a part of the SOP. So, you know, people don't know, and to 
the credit of the Homeland Security Department, they have 
defined code red now as something that only happens when there 
is an actual incident, and people don't know that either, but I 
can tell you every time we go to a code change and nobody sees 
any changes on the street, there's a loss of confidence. And 
maybe that's fine, because it may be that it only applies to 
the emergency responders, but people need to know that, too. 
They'd feel better just having--being clued in on what this 
testimony is all about.
    Chairman Tom Davis. My experience is we have some really 
great people who work in the homeland security, like Mr. Byrne 
and stuff, but it's getting started late. I mean, they just got 
the duct tape off the doors, what, about a month ago, to open 
the thing. So it's just been very late to develop, but we're 
getting there, and, fortunately, we haven't had any--if the 
biggest incident we're complaining about is tractor man, we're 
OK. I mean, we could have done better, but we're lucky at this 
point.
    Mr. White, I was just struck by something you said that 
I've known, and that is we don't really have any capacity to 
move more people at this point. I know at least on the Virginia 
side--I don't know if you do on the Maryland side or not--but 
we don't have the capacity without significant infrastructure 
improvement. Is that correct?
    Mr. White. Yeah. That's correct. And we've heard some 
members of this panel kind of come up with that observation. 
This region has a serious problem with its transportation 
infrastructure and with respect to its insufficiency, both on 
the transit side and the roadside.
    The COG has done a tremendous amount of analysis with all 
of the States and local governments in this arena, and today 
the region as a region spends $3 billion every year in its 
surface transportation program. And based upon a reasonable 
assessment, not a wish list but a reasonable assessment of what 
the region needs to be spending to protect its infrastructure 
and have a modest expansion, we need another $1.7 billion a 
year.
    So, as a region, of all the resource that has come in, 
Federal, State, local government, we're just not getting the 
job done, and it's going to--and, you know, on a good day the 
network is so fragile that the capacity is barely able to meet 
the demand. And with any hiccup, 40 percent comes from a 
nonrecurring event, as Mr. Peck said. Any event just spins out 
of control quickly.
    It's kind of like water going down a faucet. The minute 
that piece of lettuce gets stuck in your drain, you know, 
it's--and that's what happens to our road system and even our 
transit system, for that matter.
    Chairman Tom Davis. I'll just make one other thought. I 
don't know if I'm off the wall or not. But I wonder if it's 
possible to get one set of cars that are more snow resistent so 
in emergency times you could run one out to Orange line, one 
out to Green line, one out to Yellow line. Do you know what I'm 
saying?
    Mr. White. Yes.
    Chairman Tom Davis. That way you wouldn't have to change 
the whole system, but you would have some capacity at that 
time.
    Mr. White. Through improvements that have occurred over the 
years since the original pieces of rolling stock that we 
bought, the industry has gotten smart and we have gotten 
smarter on how to weather protect the equipment; and although 
most of that equipment is in the undercarriage of the train, it 
is not sitting on the top of the train, it is down below, we 
figured out and the supply side of the industry has figured out 
to better weather protect and to seal this equipment. So our 
newer cars are performing far superior to our older cars.
    As we rehabilitate those cars, we bring these 
improvements----
    Chairman Tom Davis. Do we still go to Italy to get the cars 
or where are they----
    Mr. White. The particular order we have coming now is 
coming--it's a Spanish company who's doing a domestic final 
assembly here in the States----
    Chairman Tom Davis. I was afraid you were going to say it's 
a French company.
    Mr. White. No. It's one of our friends and allies, without 
making a political comment on this. But----
    Chairman Tom Davis. I can see the amendment on the floor.
    Mr. White. And, Mr. Chairman, we have an option that we 
need to exercise in less than 2 years to buy more rail cars to 
bring this capacity in from this company and its other company 
that is supplying cars to us. It's an enormous opportunity, and 
it will pass us by if we're not able to generate the resources 
in the next couple of years.
    Interestingly, we're only using 58 percent of the Metro 
rail design capacity, that which the builders built for us. 
We're using less than 6 out of 10 percent of that, and we can 
move ourselves toward greater capacity by implementing the 
steps that people said we should take over time.
    Our system was designed to accommodate a maximum of eight 
cars in any train setting, and today we're running fours and 
sixes. So as we buy more cars, they're better designed, better 
weather protected, better able to deal with the inclement 
events; and it gives us that broader capacity to carry more 
people, particularly during surge moments when we have to have 
the ability to do that.
    Chairman Tom Davis. Thank you very much.
    Any other questions?
    Well, we thank the panel.
    Mary, you did great your first time out here. Hope to see 
you again here.
    Mr. Robertson, congratulations on your permanent 
appointment.
    Bob Peck, always great to see you. We appreciate all the 
things that the Board of Trade is doing, and we thank you very 
much.
    We would like to thank all of the witnesses for appearing 
today. I want to thank the staff who worked on the hearing. I 
want to thank particularly my two colleagues from Maryland who 
stayed here the whole time. I really appreciate it. It shows 
their interest in the regional interest in this.
    I want to add that the record will be kept open for 2 week 
to allow witnesses to include other information in the record.
    The hearing is adjourned.
    [Whereupon, at 4:19 p.m., the subcommittee was adjourned.]
    [The prepared statement of Hon. Wm. Lacy Clay and 
additional information submitted for the hearing record 
follow:]

[GRAPHIC] [TIFF OMITTED] T7679.143

[GRAPHIC] [TIFF OMITTED] T7679.144

[GRAPHIC] [TIFF OMITTED] T7679.125

[GRAPHIC] [TIFF OMITTED] T7679.126

[GRAPHIC] [TIFF OMITTED] T7679.127

[GRAPHIC] [TIFF OMITTED] T7679.128

[GRAPHIC] [TIFF OMITTED] T7679.129

[GRAPHIC] [TIFF OMITTED] T7679.130

[GRAPHIC] [TIFF OMITTED] T7679.131

[GRAPHIC] [TIFF OMITTED] T7679.132

[GRAPHIC] [TIFF OMITTED] T7679.133

[GRAPHIC] [TIFF OMITTED] T7679.134

[GRAPHIC] [TIFF OMITTED] T7679.135

[GRAPHIC] [TIFF OMITTED] T7679.136

[GRAPHIC] [TIFF OMITTED] T7679.137

[GRAPHIC] [TIFF OMITTED] T7679.138

[GRAPHIC] [TIFF OMITTED] T7679.139

[GRAPHIC] [TIFF OMITTED] T7679.140

[GRAPHIC] [TIFF OMITTED] T7679.141

[GRAPHIC] [TIFF OMITTED] T7679.142


</pre></body></html>
